<html>
<title> - LEGISLATIVE HEARING ON H.R. 2358, TO AMEND THE FEDERAL LAND POLICY AND MANAGEMENT ACT OF 1976 TO ENHANCE THE RELIABILITY OF THE ELECTRICITY GRID AND REDUCE THE THREAT OF WILDFIRES TO AND FROM ELECTRIC TRANSMISSION AND DISTRIBUTION FACILITIES ON FEDERAL LANDS BY FACILITATING VEGETATION MANAGEMENT ON SUCH LANDS, ``ELECTRICITY RELIABILITY AND FOREST PROTECTION ACT''</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









   H.R. 2358, ``ELECTRICITY RELIABILITY AND FOREST PROTECTION ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, May 20, 2015

                               __________

                            Serial No. 114-9

                               __________

       Printed for the use of the Committee on Natural Resources



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-774 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001          
          
          
          
          
          
          
          
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Vacancy
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Vacancy

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
             Sarah Parker, Democratic Deputy Chief Counsel
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       JOHN FLEMING, LA, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Robert J. Wittman, VA                Jim Costa, CA
Tom McClintock, CA                   Ruben Gallego, AZ
Cynthia M. Lummis, WY                Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Gregorio Kilili Camacho Sablan, 
Paul A. Gosar, AZ                        CNMI
Doug LaMalfa, CA                     Raul Ruiz, CA
Jeff Denham, CA                      Alan S. Lowenthal, CA
Garret Graves, LA                    Norma J. Torres, CA
Dan Newhouse, WA                     Debbie Dingell, MI
Thomas MacArthur, NJ                 Raul M. Grijalva, AZ, ex officio
Rob Bishop, UT, ex officio

                                 ------                                





















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, May 20, 2015..........................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     9
        Prepared statement of....................................    10
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     6
        Prepared statement of....................................     8
    Zinke, Hon. Ryan K., a Representative in Congress from the 
      State of Montana...........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Benevento, Doug, Director of Public Policy Development, Xcel 
      Energy, Denver, Colorado...................................    14
        Prepared statement of....................................    16
    Hayden, Mark, General Manager, Missoula Electric Cooperative, 
      Missoula, Montana..........................................    27
        Prepared statement of....................................    29
    Markham, Dave, President/CEO, Central Electric Cooperative, 
      Redmond, Oregon............................................    11
        Prepared statement of....................................    13
    Mouritsen, Karen E., Deputy Assistant Director, Energy, 
      Minerals and Realty Management, Bureau of Land Management, 
      U.S. Department of the Interior, Washington, DC............    22
        Prepared statement of....................................    23
    Smith, Gregory, Director, Lands and Realty Management, Forest 
      Service, U.S. Department of Agriculture, Washington, DC....    18
        Prepared statement of....................................    20

Additional Materials Submitted for the Record:
    American Public Power Association, Arlington, Virginia, Susan 
      N. Kelly, President & CEO, May 19, 2015, Letter in support 
      of H.R. 2358...............................................     4
    Edison Electric Institute, Washington, DC, Thomas R. Kuhn, 
      President, May 19, 2015, Letter in support of H.R. 2358....     5
    National Rural Electric Cooperative Association, Arlington, 
      Virginia, Jo Ann Emerson, CEO, May 20, 2015, Letter in 
      support of H.R. 2358.......................................     4
                                     


 
LEGISLATIVE HEARING ON H.R. 2358, TO AMEND THE FEDERAL LAND POLICY AND 
 MANAGEMENT ACT OF 1976 TO ENHANCE THE RELIABILITY OF THE ELECTRICITY 
     GRID AND REDUCE THE THREAT OF WILDFIRES TO AND FROM ELECTRIC 
     TRANSMISSION AND DISTRIBUTION FACILITIES ON FEDERAL LANDS BY 
    FACILITATING VEGETATION MANAGEMENT ON SUCH LANDS, ``ELECTRICITY 
                RELIABILITY AND FOREST PROTECTION ACT''

                              ----------                              


                        Wednesday, May 20, 2015

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 2:17 p.m., in 
room 1324, Rayburn House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, McClintock, Lummis, 
Gosar, LaMalfa, Newhouse, MacArthur, Huffman and Torres.
    Also Present: Representative Zinke.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. The Subcommittee on Water, Power and Oceans 
will come to order.
    The Water, Power and Oceans Subcommittee meets today to 
hear testimony on a discussion draft entitled, the 
``Electricity Reliability and Forest Protection Act.''
    Before we begin, I ask unanimous consent to allow the 
sponsor of the bill, Congressman Zinke from Montana, to 
participate in our hearing today. Hearing no objection, so 
ordered.
    We will begin 5-minute opening statements by myself and the 
Ranking Member, Congressman Huffman of California. And I yield 
myself 2 minutes for my part of the opening statement.
    Our hearing today is on bipartisan, common-sense 
legislation offered by Mr. Zinke of Montana and Mr. Schrader of 
Oregon that promotes Federal agency consistency and timely 
decisionmaking. The Electricity Reliability and Forest 
Protection Act is simply about helping two Federal agencies 
collaborate with electric utilities in order to avoid blackouts 
and forest fires on Federal lands. While the bill's sponsors 
are from the West, this bill is national in scope since the 
U.S. Forest Service has 155 national forests throughout our 
country.
    In my home state of Louisiana, for example, the Kisatchie 
National Forest includes over 15,000 acres of electricity 
right-of-ways maintained by seven utilities. And as we learned 
from the 1996 and 2003 tree-caused blackouts, electricity 
outages have far greater geographic impacts than an instigating 
tree.
    As a result, I am going to go ahead and yield the remainder 
of my time to Mr. Zinke.
    [The prepared statement of Dr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
                        Water, Power and Oceans
    Our hearing today is on bipartisan, common-sense legislation 
offered by Mr. Zinke of Montana and Mr. Schrader of Oregon that 
promotes Federal agency consistency and timely decisionmaking.
    The ``Electricity Reliability and Forest Protection Act'' is simply 
about helping two Federal agencies collaborate with electric utilities 
in order to avoid blackouts and forest fires on Federal lands.
    While the bill's sponsors are from the West, this bill is national 
in scope since the U.S. Forest Service has 155 national forests 
throughout our country. In my home state of Louisiana, for example, the 
Kisatchie National Forest includes over 1,500 acres of electricity 
rights-of-way maintained by seven utilities. And as we learned from the 
1996 and 2003 tree-caused blackouts, electricity outages have far 
greater geographic impacts than an instigating tree.
    The Energy Policy Act of 2005 gave Federal land agencies the 
authority to allow electric utilities managing vegetation on a right-
of-way to comply with Federal reliability standards. Yet, since then, 
this committee has held two hearings--in 2006 and 2014--where witnesses 
criticized both Republican and Democrat administrations, respectively, 
for not allowing vegetative management policies to be carried out on a 
consistent and timely basis.
    Electric transmission lines represent a critical part of our 
national infrastructure, and while there have been instances of 
cooperation between Federal land agencies and utilities, the inability 
of the agencies to be consistent is compromising electricity 
reliability and affordability and our forest health. This is an 
avoidable problem and this bill will help promote common sense and 
Federal accountability. I look forward to moving this bill and now 
yield the rest of my time to the bill sponsor and our committee 
colleague, Mr. Zinke.

                                 ______
                                 

   STATEMENT OF THE HON. RYAN K. ZINKE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF MONTANA

    Mr. Zinke. Thank you, Chairman Fleming, and thank you for 
the opportunity to speak about House Resolution 2358, the 
Electricity Reliability and Forest Protection Act. This bill is 
a win/win for Montana, for the co-ops, for the collaborative 
effort, and it is bipartisan. In Montana, our co-ops service 
about 40 percent of the state. And it corrects, as was pointed 
out, a Federal inconsistency and indecision that governs the 
way our local power companies can provide and cannot service 
their lines.
    Currently, if a tree falls down on a power line that is on 
Federal land, even though it is through a prescribed easement, 
the crews have to go through a regulatory labyrinth that in 
some cases can take months, if not years. Multiple testimony 
throughout the last few months has identified that the West, 
and the rest of the country, has an enormous problem with 
forest fires; and it is a public-safety issue. Already in 
Montana, we have had about 38,000 acres burned, which has cost 
about $1.8 million and has put in jeopardy homes and public 
safety.
    Chairman Fleming, as you noted, this bill doesn't just help 
out those of us in the West. It is an issue of forest safety 
and national safety and security for our entire country. A lot 
of the power lines go through Federal land and we need to 
reduce the bureaucracy. And certainly, we should not hold our 
co-ops hostage over what has been a Washington problem in 
negligence and gridlock. I think this is a meaningful bill.
    Mr. Chairman, I would also like to introduce Mark Hayden 
from the Missoula Electric Cooperative. Before I yield back my 
time, I would just like to point out that Mr. Hayden was the 
general manager at Missoula Electric Cooperative, which 
provides electric service to nearly 15,000 meters in western 
Montana and eastern Idaho. He is an expert in this field and, 
Mark, I appreciate you being here. It is a long way from 
Montana both culturally and distance, and I hope you find your 
stay worthy.
    And last, Mr. Chairman, I would like to enter for the 
record letters of support from the NRECA, the APPA, and the 
EEA, as delivered. Mr. Chairman, I yield back my time.

    Dr. Fleming. Hearing no objection, so ordered.

    [The prepared statement of Mr. Zinke follows:]
   Prepared Statement of the Hon. Ryan K. Zinke, a Representative in 
                   Congress from the State of Montana

    Thank you, Chairman Fleming, and thank you for the opportunity to 
speak about H.R. 2358, the Electricity Reliability and Forest 
Protection Act.

    This bill is a win for Montana and our co-ops, who service 40 
percent of the state. It corrects Federal inconsistency and indecision 
that governs the way our local power providers can, and cannot, service 
their lines on federally owned land. Currently, if a tree falls on a 
power line that is on Federal land, utility crews must go through 
regulatory back flips just to remove the tree. This can take months and 
in some cases more than a year, as Mr. Mark Hayden from Missoula notes 
in his testimony. It should not take an Act of Congress to remove a 
tree. Conditions in our forests are already dangerous. Inaction means 
disaster.

    Already this wildfire season, Montana has seen over 38,000 acres 
burned, costing more than $1.8 million. Montanans deserve reliable 
electric service to keep their lights on and an accountable and 
consistent Federal Government that will reduce power-line caused fires.

    As Chairman Fleming noted, this bill doesn't just help those of us 
out West. It's an issue of forest safety and national security for our 
entire country when a hazardous tree falls onto power lines. When the 
U.S. Forest Service or Bureau of Land Management doesn't let them 
address the problem, our entire power grid is jeopardized. We should be 
doing whatever we can to empower our co-ops, not blame them for 
government negligence. H.R. 2358 helps to meaningfully address these 
issues.

    Before I yield back my time, I'd like to briefly welcome a fellow 
Montanan, Mark Hayden, who is here to testify this afternoon.

    Mr. Hayden is the General Manager at the Missoula Electric 
Cooperative (MEC), which provides electric service to nearly 15,000 
members in western Montana and eastern Idaho. Prior to joining the MEC, 
he was the Assistant General Manager of Dunn Energy Cooperative in 
Menomonie, Wisconsin, and the General Manager for its propane 
subsidiary DEC Energy, Inc.

    Mark, I appreciate you being here today. You, along with other 
members of the Montana Electric Cooperatives Association, know best why 
this bill is an important step forward for our state and country.
    [Letters submitted by Mr. Zinke follow:]

   National Rural Electric Cooperative Association,
                                             Arlington, VA,
                                                      May 20, 2015.

Hon. Rob Bishop, Chairman,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Bishop:

    I write in support of H.R. 2358, the Electricity Reliability and 
Forest Protection Act of 2015, introduced by Representatives Ryan Zinke 
and Kurt Schrader. This common-sense legislation provides opportunities 
for electric cooperatives to better enhance safety and ensure the 
delivery of affordable, reliable electricity to their members.
    As you know, the National Rural Electric Cooperative Association is 
the national service organization that represents the nation's more 
than 900 private, not-for-profit, consumer-owned electric cooperatives, 
which provide service to 42 million people in 47 states. Rural electric 
cooperatives across the country are often located in areas on or near 
public lands. Therefore, moving electricity from generation facilities 
to customers frequently requires transmission lines to cross land that 
is federally managed. Access to these lines is essential to perform 
routine maintenance, upgrades, and equipment replacement. Further, 
vegetation management is of utmost importance to meet state and federal 
safety requirements and to ensure electric reliability for our member-
owners.
    The Electricity Reliability and Forest Protection Act would give 
electric utilities more consistent procedures and a streamlined process 
in order to better manage utility rights of way. The bill allows 
sensible procedures that would cut through federal bureaucratic red 
tape and reduce delays that currently impede our ability to adequately 
manage dangerous vegetative overgrowth in existing utility rights of 
way. Such delays not only add to the costs our electric consumers pay 
for their electricity, but present a major threat to human safety, 
wildlife habitat, and the reliable delivery of electricity.
    In short, the Zinke-Schrader bill would be a useful tool for 
allowing prompt, critical access to utility rights of way and 
responding to emergency conditions to help prevent wildfire, power 
outages, and threats to the electric grid. We urge the committee to 
swiftly move forward on this important legislation.

            Sincerely,

                                            Jo Ann Emerson,
                                           Chief Executive Officer.

                                 ______
                                 

          American Public Power Association (APPA),
                                             Arlington, VA,
                                                      May 19, 2015.

Hon. Rob Bishop, Chairman,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Bishop:

    On behalf of the American Public Power Association (APPA), I am 
writing in support of H.R. 2358, the Electricity Reliability and Forest 
Protection Act introduced by Congressmen Ryan Zinke (R-MT) and Kurt 
Schrader (D-OR). H.R. 2358 would amend the Federal Land Policy and 
Management Act of 1976 to enhance the reliability of the electricity 
grid and reduce the threat of wildfires to and from electric 
transmission and distribution facilities on federal lands by 
facilitating vegetation management on such lands. This legislation is 
extremely important to ensuring transmission- and, in some cases, 
distribution-system reliability and security. As the trade association 
representing over 2,000 not-for-profit, community owned electric 
utilities in 49 states, whose purpose is to provide affordable, 
reliable electricity with the appropriate environmental stewardship, 
this legislation is particularly welcome to us.
    As noted in the Department of Energy's Quadrennial Energy Review 
(QER), investigations following the August 14, 2003, Northeast blackout 
revealed that a primary cause of the blackout was flashover caused by 
inadequate vegetation management (tree pruning and removal). The 
Federal Energy Regulatory Commission (FERC) found that vegetation 
management approvals on federally managed rights-of-way are 
particularly problematic due to permitting and environmental 
requirements that are inconsistent and time-consuming. In the case of 
federal lands, the inability of utilities to remove vegetation beyond 
their easement presents a major obstacle in protecting the electrical 
infrastructure. Not only must long-reaching tree branches be pruned to 
avoid contacts with transmission lines, but brush and other ground 
vegetation must be periodically cleared from the base of transmission 
towers to minimize the effects of fires.
    H.R. 2358 will provide the consistency and flexibility needed by 
APPA's members to treat danger trees and facilitate access to and 
clearance of these transmission lines and associated facilities, while 
also protecting our members from liability when the appropriate federal 
government agencies fail to allow our members the ability to manage the 
vegetation in and around the electricity rights-of-way. Additionally, 
the legislation will seek to develop a program to train the appropriate 
federal employees in vegetation management practices and procedures to 
prevent the problems laid out by FERC.
    We understand that you, along with Reps. Zinke and Schrader are 
committed to seeing this legislation reach President Obama's desk to be 
signed into law. Thank you for your efforts and we look forward to 
continuing our work together on this legislation as you move through 
the legislative process.

            Sincerely,

                                            Susan N. Kelly,
                                                   President & CEO.

                                 ______
                                 

                         Edison Electric Institute,
                                            Washington, DC,
                                                      May 19, 2015.

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

Hon. John Fleming, Chairman,
Hon. Jared Huffman, Ranking Member,
House Subcommittee on Water, Power and Oceans,
Washington, DC 20515.

    Dear Chairmen Bishop and Fleming and Ranking Members Grijalva and 
Huffman:

    On behalf of the Edison Electric Institute (EEI), I am writing in 
support of H.R. 2358, the Electricity Reliability and Forest Protection 
Act, introduced by Representatives Zinke and Schrader. We applaud you 
for proceeding quickly to a legislative hearing and your intent to 
advance H.R. 2358 to the floor this year.
    EEI is the association of U.S. investor-owned electric utilities, 
international affiliates and industry associates worldwide. Our members 
provide electricity for 220 million Americans, directly and indirectly 
employ more than one million American workers, and operate in all 50 
states and the District of Columbia. With more than $90 billion in 
annual capital expenditures, the electric utility industry is 
responsible for providing reliable, affordable, and increasingly clean 
electricity that powers the economy and enhances the lives of all 
Americans.
    Managing and clearing vegetation within or near rights-of-way 
(ROWs) presents difficult challenges, especially where such ROWs are 
located on federal land. While integrated vegetation management (IVM) 
and utility vegetation management (UVM) requirements impact ``less than 
a fraction of a percent'' of overall federal lands, the consequences of 
not effectively managing the ROWs and power line corridors can be 
significant and catastrophic. Failure to manage vegetation can cause 
wildfires, spark outages, and jeopardize the transmission facilities 
themselves. As a consequence, electric utilities are required under 
North American Electric Reliability Corporation (NERC) reliability 
standard FAC-003-3 to prevent vegetation from growing into and falling 
onto transmission lines, and there are state and local safety and fire 
requirements as well.
    Even so, obtaining timely approvals from the federal land 
management agencies to perform IVM and conduct the operation and 
maintenance work necessary to meet reliability standards, assure a 
proper functioning of the grid, and reduce the potential risk of 
catastrophic fire is a constant challenge. This not only includes 
management within the ROW, but extends to ``hazard trees'' growing 
outside the permitted ROW. In most cases, a federal permit for 
vegetation management does not cover off-ROW trees, even if such trees 
pose a risk to the power lines, human life or other property. In spite 
of this, utilities are often held liable for fire suppression costs and 
damages when the off-ROW hazard trees cause a wildfire. In recent 
years, utilities have literally paid out millions of dollars to cover 
these costs.
    We believe that H.R. 2358 will provide an avenue for electric 
utilities to obtain more timely approvals while respecting the needs of 
the federal land agencies to appropriately manage their respective 
lands. The bill provides direction to the Secretaries of Agriculture 
and the Interior to expedite permit reviews; move, where possible, away 
from case-by-case approvals; and support the long-term, cost-effective, 
and timely management of facilities and vegetation within and adjacent 
to the ROW. IVM is an important tool for the sustainable management of 
vegetation and the provision of quality habitat for pollinators and 
wildlife.
    We appreciate that H.R. 2358 recognizes the inequities of imposing 
strict liability on utilities for the consequences of decisions made 
elsewhere. We would like to work with the Committee to address 
liability issues associated with off-ROW work that is the 
responsibility of the land agencies, but which prevent utilities from 
partnering with the land agencies to complete that work to their mutual 
benefit.
    EEI believes that H.R. 2358 can work to the benefit of the federal 
land agencies and electric utilities to assure the timely completion of 
work critical to maintaining a reliable grid and catastrophic wildfire 
risk reduction, and in manner that is efficient for all parties.

            Sincerely,

                                            Thomas R. Kuhn,
                                                         President.

                                 ______
                                 

    Dr. Fleming. The Chair now recognizes Mr. Huffman for 5 
minutes for an opening statement.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Mr. Chairman. Thanks for the 
witnesses joining us today, and thanks for calling this 
hearing. Forest health and reliable power transmission are two 
areas where I think there is substantial room for bipartisan 
agreement and I appreciate very much all of us devoting some 
time to this important issue. Now for the most part, I think 
trees and power lines have been good neighbors, you might say. 
Electric utilities and rural cooperatives have been installing 
and maintaining thousands of miles of power distribution lines 
for decades through National Forest lands, BLM lands, but as we 
have seen over the years, sometimes trees and brush can cause 
serious hazards when they come into contact with power lines. 
We, obviously, need to prevent that to the greatest degree that 
we can.
    It has been mentioned that there are some tremendous 
blackouts that have occurred because of this. Back in the 1990s 
on a hot August day, a power line came into contact with a high 
power load line--came into contact with a tree because an 
orchard tree had grown too high. The result of that was 
millions of people throughout Canada and 10 western states 
without power; 7 million people to be precise. In 2003, we had 
a similar blackout in the Northeast that affected 50 million 
people without power, cost billions of dollars in lost 
productivity and in both cases, again, investigators found that 
it was a tree coming into contact with high-voltage lines.
    And these problems aren't even counting forest fires that 
often result from these kinds of contacts, and the extreme 
damage and public safety problems that that presents. So it is 
in everyone's interest to prevent that kind of harm that can 
happen from inadequate vegetation management along these 
utility corridors.
    The question is, what can we do to address the problem to 
improve vegetation management on these rights-of-way? And I 
think the first thing we need to be clear about is addressing 
the inadequate funding for Federal land management agencies 
that is absolutely a part of this problem. We keep talking a 
lot about the symptoms of this situation. We had a hearing 
earlier today that talked about the problem of the deferred 
maintenance backlog on BLM and Forest Service lands, again, 
caused by underfunding these agencies. Today we are talking 
about some risks and liabilities and problems that are also 
manifestations of this chronic underfunding, and fire borrowing 
is really the poster child of this problem.
    This is the practice of transferring funds away from 
resource management accounts to fight wildfire. This is the 
root cause of the problem of our Federal agencies being unable 
to do the many additional things we are asking of them. In 
Fiscal Year 2015 wildfire funding was 52 percent of the Forest 
Service's budget. Just back in 1990 that amount was only 13 
percent of the Agency's budget.
    So the trend is completely unsustainable. When you are 
spending more than half of your budget on wildfire management, 
you are obviously squeezing out other critical programs and 
needs. It has left the Forest Service's field offices without 
adequate resources and manpower to carry out all kinds of 
management activities, but that certainly includes processing 
right-of-way-related requests with neighbors and partners such 
as the utilities that we are going to hear from today.
    That is why I, and several of my colleagues, support 
legislation to allow responses to large forest fires to be 
funded like other national disasters. This is a bipartisan 
solution that we are putting forward. Doing this would free up 
resources to help us address this problem.
    Now, the second part of this is that I think moving from a 
case-by-case special use permitting situation to a more 
systemic planning approach could absolutely improve 
coordination and consistency. So that could be a good thing. 
But this draft legislation, we believe, is not quite ready for 
prime time. One of the problems is that some of its provisions 
could have unintended consequences that could damage natural 
resources on public lands and not improve consistency in 
coordination.
    For example, a provision allows utilities the option to 
develop and submit plans to Federal agencies, but it doesn't 
require that. So you could have the challenging situation of 
some utilities having plans, others not having plans, and that 
is not the kind of coordination and consistency that we need. 
The draft also includes a provision that would dramatically 
redefine danger tree to the point that it would potentially 
include a large swath of land and trees outside of a narrow 
right-of-way, and I think we need to be very careful with 
unintended consequences for that provision, among others. There 
is a provision that transfers liability for wildfire damage, 
loss, or injury from utilities to the taxpayer. We are going to 
need to look very closely at that.
    But the bottom line, Mr. Chairman, is I think we have lots 
of room to work together on this important issue. I hope we can 
address that fire borrowing issue where there is so much 
bipartisan support. And I look forward to the hearing today.
    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power and Oceans
    Mr. Chairman, thank you for calling this hearing today. Forest 
health and reliable power transmission are two areas where there is 
substantial room for bipartisan agreement, and I appreciate you 
devoting time to this important issue.
    For the most part, trees and power lines have been good neighbors. 
Electric utilities and rural cooperatives have been installing and 
maintaining thousands of miles of power distribution lines for decades 
through National Forest and BLM lands. But, as we have seen over the 
years, sometimes trees and brush can cause serious hazards when they 
come into contact with power lines.
    Back in the mid-1990s during a very hot August day, a power line 
with a high power load sagged into an orchard tree that grew too high. 
The line blew, causing an outage that extended to Canada and 10 western 
states. Seven million people and businesses lost power. In 2003, a 
similar blackout in the Northeast left 50 million people without power 
and cost billions of dollars in lost productivity. In both cases, 
investigators found that the outages were caused by trees coming into 
contact with high-voltage lines. Trees making contact with power lines 
have also sparked numerous forest fires, causing the destruction of 
thousands of acres and endangering many lives.
    Clearly it is in everyone's interest to prevent the harm that can 
be caused by inadequate vegetation management along our utility 
corridors. Everybody loses when there is a power failure or forest 
fire. When forest fires are sparked or when the power is out, people's 
lives are endangered and we lose control of the technology that makes 
our society function. So, what can we do to improve vegetation 
management on rights-of-way?
    First, I think it's clear we must do something to address the 
inadequate funding for Federal land management agencies. `Fire 
borrowing', the practice of transferring funds away from resource 
management accounts to fight wildfires, is the root cause of this 
funding deficiency. In Fiscal Year 2015, wildfire funding was 52 
percent of the Forest Service's budget. In the 1990s, wildfire funding 
accounted for approximately 13 percent of the agency's budget. It is 
clear this trend is unsustainable. Spending more than half of the 
Forest Service's budget on wildfire management squeezes out funds 
needed for other critical Forest Service programs and has left field 
offices without adequate resources and manpower to carry out many 
management activities, including processing right-of-way-related 
requests.
    That is why I and several of my colleagues support legislation to 
allow responses to large forest fires to be funded like other national 
disasters. Doing this would free up resources and help expedite 
approval of right-of-way maintenance, while also ensuring that national 
forestry funding can be used to fulfill its original purpose--ensuring 
our Nation practices good stewardship of our national forests for the 
health and benefit of all Americans.
    Second, I think moving from case-by-case special use permitting to 
a more systematic process that considers rights-of-way across all U.S. 
public lands and requires upfront planning could do a great deal to 
improve coordination and consistency in vegetation management and other 
right-of-way maintenance. However, the draft legislation we are 
discussing today takes a different approach, and some of its provisions 
could have unintended consequences that could damage natural resources 
on U.S. public lands and not improve coordination and consistency.
    For instance, the discussion draft gives utilities the option to 
develop and submit plans to U.S. public land management agencies for 
right-of-way maintenance activities, but does not require the plans, 
creating a situation in which inconsistencies are likely to persist. 
Further, land managers would not be able to modify a requirement in the 
bill that these plans meet local and state electricity reliability and 
fire safety standards--effectively giving control over rights-of-way on 
U.S. public lands to the states and localities.
    The discussion draft also contains a provision that allows 
utilities to remove ``danger trees''--trees that could damage 
infrastructure or cause fires if they fall. The bill defines a danger 
tree as any tree inside or outside the right-of-way that would come 
within 10 feet of a power line or related infrastructure if it fell. 
This is a significant expansion of current authority, which defines a 
danger tree as one that is in imminent danger of falling onto a line. 
This new authority would technically allow for the removal of wide 
swaths of forest on either side of a right-of-way, regardless of 
potential environmental damage.
    The bill also transfers liability for wildfire damage, loss, or 
injury--including the costs of fire suppression--from the utilities to 
the U.S. Government. This would further stress agency resources and 
make the right-of-way management process even less efficient.
    Mr. Chairman, it is important that U.S. public land managers work 
with utilities to ensure that each right-of-way is cleared of debris 
and there is sufficient clearance space for falling trees. I also 
believe there are things we can do to improve coordination and expedite 
approval of right-of-way maintenance. I hope this hearing can help 
elucidate where Federal agencies, utilities, and co-ops are succeeding 
and where improvement is needed. There are common-sense solutions to 
many of these challenges and I look forward to working with you, Mr. 
Chairman, and the rest of the committee on solutions that improve 
public safety, transmission reliability, and the health of our forests.

    Thank you, I yield back.

                                 ______
                                 

    Dr. Fleming. Great. I thank the Ranking Member.
    The Chair now recognizes Dr. Gosar, Vice Chair of the 
Subcommittee, for 5 minutes.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Mr. Chairman. My home state of 
Arizona is on the frontline of the issues being discussed 
today. The hearing on the bill before us couldn't be better 
timed. I thank the committee--my committee's colleagues Mr. 
Zinke and Mr. Schrader for their leadership on this bill.
    The Arizona Public Service Company testified before this 
committee last year on the very need for the legislation being 
considered today. The company which serves 11 of Arizona's 15 
counties, has power lines crossing 5 national forests, 4 Bureau 
of Land Management districts, 4 wildlife refuges, 11 National 
Park Service units, and 3 national monuments administered by 
the BLM.
    It is abundantly clear they are at the forefront of these 
issues. The company's witness, Mr. Mike Neal, who manages 
forestry and special programs, had the unique opportunity to 
testify both during the second Bush administration and the 
current administration on the same topic with the same 
concerns. Little had changed in between his testimonies, 
prompting Mr. Neal to conclude that the legislation was 
necessary to, ``ensure that electric utilities are able to 
manage power line right-of-ways on Federal land efficiently and 
in a timely manner.'' I couldn't agree more.
    This is common-sense legislation designed to bring 
consistency, accountability, and fairness to a system that is 
none of the above. Last year's testimony and this hearing's 
witness examples are replete with examples that resemble 
something out of a top 10 David Letterman's list of government 
red tape, endless delays, and inconsistencies. As opposed to 
being funny, though, this is a serious matter. This is as real 
as it gets.
    On one hand, we had Federal reliability standards that can 
lead a utility to be fined up to $1 million a day. But on the 
other hand, we have Federal land agencies that are 
circumventing utilities for meeting those standards. In the 
meantime, the risks of catastrophic fires increases from such 
government inaction. A witness from Wyoming said last year that 
it was simply luck that beetle-killed trees didn't fall on 
power lines during years of bureaucratic delay.
    As we have noticed in Arizona, our forests are not so lucky 
when it comes to catastrophic fires. To make matters worse, the 
Federal land agencies are constantly putting rate pairs at risk 
by having them be liable for hazardous and dangerous trees 
outside of the right-of-way that threaten power lines in the 
forests around them.
    As APS Mike Neal had said, ``In recent years utilities have 
literally paid out millions of dollars to cover fire 
suppression and damage cost. Utilities believe the Federal 
agencies as the official land managers have the responsibility 
and obligation to manage these outside of right-of-way 
hazardous trees. This is no different than protecting the 
public from hazardous trees in camp grounds.''
    The legislation before us protects rate pairs from such 
Federal schemes by allowing them to immediately prune a tree in 
imminent danger, or falling on a line, and by changing the 
liability standard that the Federal Government blocks them from 
pruning dangerous trees. This is a simple, straightforward bill 
aimed at improving the way the Federal Government operates. It 
is what everybody wants, but it changes the failed status quo 
by allowing utilities to do their jobs and make Federal 
neighbors and landlords more accountable.
    It is good for human safety, for rate payers, for 
protecting forest and wildlife, and for protecting power lines 
that deliver renewable energy to the market. I commend the 
gentlemen from Montana and Oregon, and the witnesses who face 
this issue on the frontline every day for being there. I yield 
back the balance of my time.
    [The prepared statement of Dr. Gosar follows:]
  Prepared Statement of the Hon. Paul A. Gosar, Vice-Chairman, Water, 
                     Power and Oceans Subcommittee
    Thank you, Mr. Chairman.

    My home state of Arizona is on the front line of the issues being 
discussed today. The hearing and the bill before us couldn't be better-
timed. I thank our committee colleague, Mr. Zinke, and Mr. Schrader for 
their leadership on this bill.
    The Arizona Public Service Company testified before this committee 
last year on the very need for the legislation being considered today. 
The company, which serves 11 of Arizona's 15 counties, has power lines 
crossing 5 national forests, 4 Bureau of Land Management districts, 4 
wildlife refuges, 11 National Parks Service units and 3 national 
monuments administered by the BLM. It's abundantly clear they are at 
the forefront of these issues.
    The company's witness, Mr. Mike Neal, who manages forestry and 
special programs, had the unique opportunity to testify both during the 
second Bush administration and the current administration on the same 
topic with the same concerns. Little had changed in between his 
testimonies, prompting Mr. Neal to conclude that legislation was 
necessary to ``ensure that electric utilities are able to manage power 
lines right-of-ways on Federal land efficiently and in a timely 
manner.'' I couldn't agree more.
    This is common-sense legislation designed to bring consistency, 
accountability and fairness to a system that is none of the above. Last 
year's testimony and this hearing's witness examples are replete with 
examples that resemble something out of a Top 10 David Letterman list 
of government red-tape and endless delays and inconsistencies.
    As opposed to being funny, though, this is a serious matter that is 
as real as it gets. On one hand, we have Federal reliability standards 
that can lead a utility to be fined up to $1 million a day, but on the 
other hand, we have Federal land agencies that are circumventing 
utilities from meeting those standards. In the meantime, the risk of 
catastrophic fires increases from such government inaction. A witness 
from Wyoming said last year that it was simply luck that beetle-killed 
trees didn't fall on power lines during years of bureaucratic delay. As 
we have noticed in Arizona, the forests are not so lucky from 
catastrophic fires.
    To make matters worse, the Federal land agencies are constantly 
putting ratepayers at risk by having them be liable for hazardous and 
dangerous trees outside of the right-of-way that threaten power lines 
and the forests around them. As APS's Mike Neal said, ``In recent 
years, utilities have literally paid out millions of dollars to cover 
fire suppression and damage costs. The utilities believe that the 
Federal agencies, as the official land managers, have the 
responsibility and obligation to manage these outside the right-of-way 
hazard trees. This is no different than protecting the public from 
hazardous trees in a campground.'' The legislation before us protects 
ratepayers from such Federal schemes by allowing them to immediately 
prune a tree in imminent danger of falling on a line and by changing 
the liability standard if the Federal Government blocks them from 
pruning dangerous trees.
    This is a simple, straightforward bill aimed at improving the way 
the Federal Government operates. It's not everything everyone wants, 
but it changes the failed status quo by allowing utilities to do their 
jobs and to make Federal neighbors and landlords more accountable. It's 
good for human safety, good for ratepayers, good for protecting forests 
and wildlife and good for protecting power lines that deliver renewable 
energy to the market.
    I commend the gentlemen from Montana and Oregon and the witnesses 
who face this issue on the front-lines every day for being here today.

                                 ______
                                 

    Dr. Fleming. The gentleman yields back.
    Thank you for our opening statements. And now we will hear 
from our panel. Each witness' written testimony will appear in 
full in the hearing record, so I ask that witnesses keep their 
oral statements to 5 minutes as outlined in the invitation 
letter to you under Committee Rule 4(a). If for some reason you 
haven't gotten your full testimony out, we will accept it for 
the record. So there is no need to try to jam the rest of it in 
if you are not quite done with it.
    I also want to explain how our timing lights work. Very 
simply, you are under a 5-minute light. It will be green for 4 
minutes, then yellow for the final minute. If it turns red, 
then we want you, if you haven't already, to quickly conclude 
your remarks.
    Before we begin the testimony, I want to ask for unanimous 
consent that Congressman Greg Walden's statement on this bill 
and his introduction of our first witness be entered into the 
record. Hearing no objection, so ordered.
    Now, I recognize Mr. Dave Markham, President and CEO of the 
Central Electric Cooperative, Inc., in Redmond, Oregon to 
testify. Sir, you have 5 minutes.

  STATEMENT OF DAVE MARKHAM, PRESIDENT/CEO, CENTRAL ELECTRIC 
                  COOPERATIVE, REDMOND, OREGON

    Mr. Markham. Good afternoon, Chairman Fleming and members 
of the subcommittee. As introduced, I am Dave Markham. I am the 
President and CEO of Central Electric Cooperative, and we are 
headquartered in Redmond, Oregon. In Central Electric we are a 
distribution cooperative and we serve 32,500 meters, and that 
is over a 5,300-square mile service territory in central 
Oregon. And I also serve as the President of the Oregon Rural 
Electric Cooperative Association.
    I appreciate the opportunity to testify today in support of 
the Electricity Reliability and Forest Protection Act and I 
commend Congressman Zinke and one of my state's Congressmen, 
Kurt Schrader, for their leadership with introducing this bill.
    It was just 1 year ago when I was here and testified before 
the full House Committee on Natural Resources. At that time 
when I testified, I went into the problems that our electric 
cooperatives are encountering when working with the BLM and the 
Forest Service when it comes to things such as doing routine 
maintenance of our facilities, upgrading, or replacing our 
aging infrastructure that crosses federally managed lands.
    And I shared several stories about the frustrating delays 
that we experienced, the lack of consistency, and also the lack 
of customer service I think that we experience when dealing 
with BLM and the Forest Service. I sit here today wishing that 
I could report to you that there has been significant 
improvement over the past year, but unfortunately that is not 
going to be the case.
    It is with a lot of reluctance that I say that as far as 
the BLM and the Forest Service are concerned, we continue to 
see significant falling short of what I believe are acceptable 
cooperatives to ensure safe, reliable, and affordable 
electricity to our members. And I want to explain why this 
legislation is so important to fulfilling our mission of 
providing safe, reliable, and affordable electricity to rural 
Oregonians.
    The first reason is consistency. We have experienced 
differing interpretations and applications of standards, and 
this isn't just between the Forest Service and the BLM. This is 
within the same districts, the same land agencies, and also 
even from ranger to ranger we experience it. This legislation 
is going to provide that much needed uniformity and standards. 
I believe it will improve consistency and give us some 
efficiency.
    The second reason is accountability. This one is important 
to me. I will tell you, we could stay here all day and I could 
tell you stories about the lengthy delays that we experienced 
with the Forest Service and the BLM. But I am just going to 
give you one story because I am limited to 5 minutes.
    Now my co-op, we have been waiting for nearly 2 years now 
to replace a short 1.2 mile section of underground cable that 
has been in place for 45 years. It is in deteriorating 
condition. Now, waiting 2 years on top of that, we have also 
been experiencing additional delays because we were recently 
informed that we would have to have an archeological study done 
on this and that could end up costing our co-op an extra 
$87,000. If you take a look at it comparatively, our utility, 
we can construct a similar-type project on non-federally 
managed lands, we can do that within a month.
    So I truly believe that this kind of service is 
unacceptable, and I believe that our government can and must do 
better.
    The third reason that I believe the legislation is so 
important is the need for sound forest management. Now, I want 
to acknowledge the provisions in this legislation regarding the 
removal of danger trees that are within or near the right-of-
ways. And years ago, our neighboring utility to the south, 
Midstate Electric Cooperative headquartered in La Pine, Oregon, 
they requested approval from the Forest Service to remove some 
danger trees near a right-of-way and that request was denied.
    I can probably let you finish the story right here and you 
will probably guess what happened, right; and, predictably what 
happened was, the tree came down, it took down a line and it 
started a major wildfire. And because the co-op was held 
liable, they ended up having to reimburse firefighting costs 
that were in the hundreds of thousands of dollars. In this 
legislation, the provision that shifts the liability away from 
the utility if the Federal land agencies deny permission to 
manage the vegetation, this provision is needed and is long 
overdue.
    The safety, reliability, and affordability--you have heard 
me say it three times now in less than 5 minutes. It is a 
pretty important topic and I have been back here in Washington, 
DC enough to hear how important that is when you are talking 
about the electric grid. While I would love to see this 
legislation go much further than the language in this bill, I 
understand how the system works and I understand it takes time. 
H.R. 2358 is significant progress in the right direction. I am 
excited about what we could have here and I really urge the 
subcommittee to support this. I want to thank you for the 
opportunity to testify today and I would be pleased to answer 
any questions.
    [The prepared statement of Mr. Markham follows:]
 Prepared Statement of Dave Markham, President/CEO of Central Electric 
 Cooperative, Inc. and President of Oregon Rural Electric Cooperative 
                              Association
    Good afternoon Chairman Fleming and members of the subcommittee. I 
am Dave Markham, President and CEO of Central Electric Cooperative, 
headquartered in Redmond, Oregon. Central Electric is a distribution 
cooperative serving more than 32,500 meters across a 5,300 square mile 
service territory in central Oregon. I also serve as the President of 
the Oregon Rural Electric Cooperative Association, the organization 
that represents Oregon's 18 member-owned not-for-profit electric 
cooperatives.
    I appreciate the opportunity to testify in support of the 
Electricity Reliability and Forest Protection Act (H.R. 2358). I 
commend Congressman Zinke and one of my state's Congressmen, Kurt 
Schrader, for their leadership introducing this bill. One year ago, I 
testified before the full House Committee on Natural Resources on the 
issues Oregon electric cooperatives have experienced when attempting to 
secure approval for routine maintenance, upgrades or replacement of our 
power lines with the United States Forest Service (USFS) and the Bureau 
of Land Management (BLM). I outlined several stories about frustrating 
delays, wildly varying standards and a lack of a customer service ethic 
among our Federal land management agencies. I am here again today to 
report while incremental progress has been made, it continues to fall 
significantly short of what I believe is acceptable to ensure the 
safety, reliability and affordability of electricity we provide to our 
members.
    With 56 percent of the land in Central Electric's service territory 
federally managed, it is vitally important the USFS and BLM work 
cooperatively with us as we fulfill our mission providing safe, 
reliable and affordable electricity to rural Oregonians. Oftentimes, we 
believe this mission is threatened due to the actions of these 
agencies. We have found huge variations and approaches not only between 
the USFS and the BLM, but within the land management agency districts, 
and even ranger to ranger. We continue to experience a complete lack of 
uniform standards. This legislation will bring much needed consistency 
and accountability.
    I want to provide a few examples of the issues we face when working 
with the USFS and BLM. More than 38 percent of Central Electric's 
distribution lines are underground. Some of these underground lines are 
reaching the end of their life expectancy and are in the process of 
being replaced. We have been waiting for nearly 2 years to receive USFS 
approval to replace a short 1.3 mile section of deteriorating 
underground line that has been in place for more than 45 years. Adding 
to this lengthy delay, we were recently informed this approval process 
will now require an archeological study which could cost the 
cooperative an additional $87,000--not an insignificant amount of money 
for our member-owners. If these delays continue, our construction 
opportunity will again be missed due to weather conditions that prevent 
accessibility in this location of our service territory. Comparatively, 
our utility can construct a similar project on non-federally managed 
land within 1 month. The protracted length of time it requires to 
receive approval to complete routine maintenance, upgrades or 
replacement of our power lines on federally managed lands is having an 
impact on the safety and reliability of the electricity we provide to 
our members.
    As I noted last year, Central Electric's experience with our land 
management agencies is not an isolated incident. Another Oregon 
electric cooperative is in a 2-year holding pattern over needed 
upgrades to transmission lines that will ensure reliability for 15,000 
members. As one electric co-op manager told me, ``there are so many 
studies, so many processes, and so many hoops to jump through'' the 
agencies seem paralyzed to act.
    Nor is this experience isolated only to electric service. Many 
electric co-ops are involved in the deployment of broadband to rural 
areas. Douglas Electric Cooperative in Roseburg, Oregon, informed me 
they were forced to wait 18 months to attach fiber optic cable to six 
existing power poles, depriving their members of broadband services. I 
believe the provisions in the legislation calling for the establishment 
of timelines and benchmarks will go a long way toward expediting these 
important projects.
    I also want to applaud the provisions in this legislation regarding 
the removal of ``danger trees'' within rights-of-way. In central 
Oregon, forest fires are a common occurrence due to lightning strikes 
and we are often at the mercy of Mother Nature. However, Mother Nature 
is not always to blame. Oregon electric co-ops have seen the impact 
when we are not allowed to properly maintain the rights-of-way.
    Years ago, Midstate Electric Cooperative in La Pine, Oregon, 
requested the trimming of selective trees along the rights-of-way on 
USFS land for fear the trees were a hazard. This request was denied. 
Predictably, a tree fell into a power line, sparking a wildfire. 
Because the electric cooperative was held strictly liable, they had to 
pay firefighting costs of $326,850. This legislation's provision 
shifting the liability away from the utility if the agency denies 
permission to manage the vegetation is needed and long overdue.
    I am not here to denigrate the land management professionals at the 
USFS and the BLM although I am aware in certain instances, there has 
been a lack of customer service ethic by the agencies as well as 
excessive employee turnover that results in inconsistencies and the 
lack of accountability. Not all of this can be legislated, but I am 
hopeful the training and guidance language in the bill will help 
alleviate some of these issues and ensure agency personnel understand 
our priority of safety requirements and electrical system reliability.
    I will reiterate my comments from last year's testimony. It is 
beyond time our Federal land managers work collaboratively with 
electric co-ops to develop common-sense reforms of their current 
practices. These operational and cultural problems will not be resolved 
overnight and must involve long-term solutions, such as this 
legislation. We need a streamlined process that will provide some 
consistency and accountability. H.R. 2358 is significant progress in 
the right direction and I urge the subcommittee to support it.
    Thank you for the opportunity to testify. I would be pleased to 
answer any questions.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Markham.
    I now recognize Mr. Doug Benevento, Director of Public 
Policy Development for Xcel Energy in Denver, Colorado.

    STATEMENT OF DOUG BENEVENTO, DIRECTOR OF PUBLIC POLICY 
           DEVELOPMENT, XCEL ENERGY, DENVER COLORADO

    Mr. Benevento. Thank you for holding this hearing, Mr. 
Chairman, Mr. Ranking Member and providing an opportunity to 
comment on the Electrical Liability and Forest Protection Act. 
Xcel Energy is a Midwest and Western electric and gas utility 
with operations in Minnesota, Colorado, Texas, New Mexico, 
Wisconsin, North Dakota, South Dakota, and Michigan. Our 
combined operations have just over 3 million customers on the 
electric side, and just fewer than 2 million gas customers. We 
are also the largest wind provider in the United States and the 
10th largest solar provider in the United States.
    We have 19,000 miles of transmission, including several 
hundred miles of hi-voltage transmission, as well as 
distribution on land managed by the Federal Government. And 
while Colorado has had multiple fires in recent years, we have 
been fortunate in that damage to our infrastructure has been 
minimal. However, we believe in being proactive with respect to 
protecting our customer's reliability.
    That is why we have not only spent millions of dollars to 
protect our infrastructure on public lands, but we have also 
invested in sophisticated mapping systems that allow us to 
specifically identify trees which pose a risk to our 
transmission, or buildup of vegetation that could increase the 
intensity of a fire.
    We believe the principles outlined in the Electricity 
Reliability and Forest Protection Act would provide additional, 
useful tools, some here today, to support this legislation. 
While we understand that this legislation has miles to go 
before its ultimate approval, we believe that the principles 
outlined in the proposal strike a balance between protecting 
our public lands and our need to protect our transmission that 
rests upon it. We think this legislation captures appropriately 
an approach that is productive. It establishes uniform 
procedures and practices for management, but does not 
micromanage the Agency.
    The legislation does, however, establish standards for when 
a utility can act that are appropriate. We support the language 
in the legislation which allows for the immediate removal of 
vegetation that would pose an imminent threat to transmission. 
We also believe the use of integrated vegetation management for 
planning is appropriate from both a forest health and utility 
infrastructure perspective.
    While this legislation addresses management on the right-
of-way and the management adjacent to the right-of-way, we have 
also been concerned about management issues off of the right-
of-way. Management of vegetation off of our right-of-way, 
particularly in remote areas where our transmission lines are 
located, is the responsibility of the Federal Government, but 
it is often not being done because of constrained budgets and 
the fact that this work is done in remote areas which are not 
priority areas for the Forest Service. Because we don't have 
responsibilities for these areas, we have not dealt with 
vegetation management in off right-of-way areas.
    But we are concerned about fuel buildup in these areas 
resulting in a risk to our infrastructure in the event of a 
fire. Targeted and discrete treatment of these areas near our 
infrastructure would significantly reduce the risk to our 
facilities. The work that needs to be performed is limited, 
often less than a quarter of an acre, and is essentially 
clearing out fuel on the ground, or thinning trees to reduce 
crowding. It should be the exact work that the Federal land 
management agencies would do absent other priorities.
    We are willing to help treat these very limited areas to 
reduce the fire threat and are willing to do so at our cost and 
at the direction of the Forest Service. The issue is that if we 
were to perform such voluntary work, we would need greater 
clarification as to what standard of liability would apply to 
us. Because this is voluntary work, work for which we otherwise 
are not responsible, we would need assurance that we would be 
held at most to a gross negligence standard in the unlikely 
event that a fire broke out during off-right-of-way restoration 
work.
    In contrast to on-right-of-way work where a strict 
liability standard is in place, at least for the first $1 
million worth of damages regarding the transmission corridor, 
we cannot undertake similar liability responsibilities off the 
right-of-ways. We believe this helpful clarification will 
encourage utilities to partner with the agencies in both 
dollars and workforce to address such off-right-of-way fire 
concerns.
    While we certainly don't anticipate any problems and 
haven't had any in recent memory, we believe that changing the 
level of liability appropriately reflects the voluntary nature 
of this activity. I am going to be clear. This off-right-of-way 
work would be absolutely no commercial value to us. And we are 
adamant that any work would have to be discussed, reviewed, and 
ultimately approved by the Federal Land Management Agency. 
Thank you for your time and I am happy to take any questions.
    [The prepared statement of Mr. Benevento follows:]
     Prepared Statement of Doug Benevento, on Behalf of Xcel Energy
                          summary of testimony
    Xcel Energy is testifying in support of the principles outlined in 
the Electric Reliability and Forest Protection Act and to recommend to 
the subcommittee an additional approach that will help to protect our 
public lands and utility infrastructure.
    Xcel Energy has electric and gas infrastructure in remote areas of 
public lands throughout our service territory in Colorado. In a time of 
constrained budgets and a focus on the wildland urban interface 
(``WUI'') Federal land managers have not been able to fully prioritize 
management off the right-of-way (``ROW'') in these more remote areas. 
While we understand the focus on the WUI we are concerned that a fire 
in a more remote area could result in damage to our infrastructure.
    In Colorado there are areas off our ROW and adjacent to electric 
transmission structures where we and the Forest Service believe 
selective clearing would reduce the risk to our infrastructure in the 
event of a passing wildfire.
    We have proposed to our Federal partners that we would be willing 
to perform off ROW work either on a cost-share basis, or at our own 
expense. Performing the work with existing contracted resources would 
require an additional Special Use Permit (``SUP''), which would include 
unacceptable liability provisions.
    The existing liability standard for work on our ROW is strict 
liability up to $1 million in damages. After that first $1 million is 
reached there is a new standard for any additional damages.
    Because this off ROW work is proactive, voluntary and would assist 
in the management of public lands, we believe that there should be a 
different liability standard for work performed off the ROW if that 
work is done at the direction and with the approval of the relevant 
Federal land manager.
    We respectfully suggest that the subcommittee examine whether a 
public-private partnership could be incentivized if the standard of 
liability for a private entity performing work off its ROW were gross 
negligence instead of strict liability or comparative liability.
                              introduction
    Chairman Fleming, Ranking Member Huffman, members of the 
subcommittee, thank you for holding this hearing and providing the 
opportunity to comment on the draft legislation.
    My name is Doug Benevento and I'm here representing Xcel Energy, a 
vertically integrated investor-owned gas and electric utility that 
provides service to just under 3\1/2\ million electric customers and 
just under 2 million gas customers in eight states: Minnesota, 
Colorado, Texas, New Mexico, Wisconsin, North Dakota, South Dakota, and 
Wisconsin.
    Throughout its service territory, Xcel Energy has nearly 19,000 
miles of transmission lines. Included in that number are several 
hundred miles of high voltage transmission facilities in Colorado on 
land managed by the Federal Government.
    In order to ensure reliability for our customers, we are committed 
to using the most progressive technology available to reduce the risk 
of damage or destruction to our infrastructure from wildfire.

    Along with spending millions of dollars to reduce wildfire risk on 
public lands in Colorado we have also:

    <bullet> Deployed remote sensing technology including Light 
            Detection and Ranging (LiDAR) and high resolution imagery 
            from a helicopter which enables Xcel Energy to surgically 
            identify hazard trees and areas around transmission 
            structures that are high risk for wildfire damage due to 
            fuel load on the ground and forest densities off the ROW 
            that need to be thinned.

    <bullet> Leveraged the output from remote sensing combined with 
            geospatial risk analysis which has identified approximately 
            1,600 transmission structures that we've identified as 
            ``high risk'' for damage should a wildfire pass through 
            these structure sites. Approximately 450 of these high risk 
            structures are located on Federal lands. At this time, 
            there is no plan from the U.S. Forest Service to address 
            over 100 of these high risk structures.

    Xcel Energy is also committed to ensuring electric service 
reliability for its customers by working with our Federal partners to 
reduce the risk from fires to our infrastructure on public land. To 
this end, Xcel Energy and the U.S. Forest Service entered into a 
memorandum of understanding, allowing us to pay the USFS to perform 
necessary off ROW wildfire protection work adjacent to high and medium 
risk transmission structures.
             electric reliability and forest protection act
    We believe that passage of legislation like the Electric 
Reliability and Forest Protection Act could help both us and Federal 
land managers (``FLM'') protect utility infrastructure.
    In particular, we believe that the legislation appropriately gives 
discretion to utilities to respond to emergency conditions. We also 
believe that the unified vegetation management plan, facility 
inspection plan, and operation and maintenance plan will be useful 
planning documents for both utilities and Federal land managers.
    If the unified management plan is designed properly, approved in a 
timely manner and implemented correctly it would provide guidance to 
utilities on how to proceed with work on or adjacent to existing ROW. 
Additionally it will provide certainty to the utilities and a useful 
management tool for the FLM.
    We understand that this legislation is just beginning its journey 
through the legislative process. However, as it progresses we hope that 
this subcommittee and your colleagues on both sides of Capitol Hill 
continue to focus on the issue of balancing the important oversight 
role played by the Federal land managers with our equally important job 
of ensuring reliability for our customers.
                       liability for off-row work
    Today I want to raise an additional issue not addressed in the bill 
that we hope the committee will consider. While this is an important 
issue for Xcel Energy, we think it is applicable to other utilities as 
they consider the need to perform work off existing ROW.
    Our concern pertains to off-ROW vegetation management that is 
occasionally necessary to protect transmission lines from wildfire 
threats originating outside of the ROW.
    Our concern focuses on dense forests adjacent to our transmission 
structures that can pose an enormous threat to our facilities 
survivability from a passing wildfire.
    We are under no obligation to manage vegetation off of our ROW. It 
is the responsibility of the Federal land management agency to manage 
it to protect our facilities. However, lack of resources and a focus on 
the WUI areas by Federal land managers has led to a decline in 
management in more remote areas where we have important infrastructure.
    We routinely manage our ROW and could easily turn our attention to 
these small (\1/4\ acre per structure), but highly critical off-ROW 
work areas.
    There is no debate on whether this work should and can be done in a 
fashion that minimizes impacts to the surrounding environment, wildlife 
and the surrounding ecosystem. In fact, it can also help develop 
pollinator habitat.
    While, Xcel Energy is willing to contribute field crew and 
financial resources to these off-ROW management efforts, we are 
concerned that if we do so we take on unrestricted liability.
    That is a standard we are not willing to expose our company and 
ratepayers to in order to perform work that is not our responsibility. 
Xcel Energy is hopeful Congress will consider legislation clarifying 
that a utility doing off-ROW vegetation management work pursuant to an 
agency-approved vegetation plan may do so without the fear of a taking 
on strict or comparative liability. In these cases we believe a gross 
negligence standard with a potential cap on our overall liability is an 
appropriate approach for our voluntary efforts to solve these wildfire 
threats. In addition to or as an alternative we believe a cap on 
liability could also address our concerns.

    We believe what we're proposing can be successful at both improving 
the health of public lands and protecting our infrastructure if we can 
agree on the following principles:

    <bullet> All work must be timely reviewed and approved by the 
            relevant FLM before it is undertaken;

    <bullet> There can be no commercial value from the management 
            activity to the utility; and

    <bullet> The liability standard for performing such work should be 
            gross negligence and/or capped at a set amount.

    We are open to discussing other principles and would certainly 
welcome the input of the Departments of Agriculture and Interior on 
such a proposal. We want to be clear about our goal, improving the 
ability of our infrastructure to survive a wildfire in the remote areas 
where it is located. We are not seeking a larger opening in the 
management of public land that could lead to larger applications of 
this language.
    What we are suggesting is not unique. In many parts of the country 
under state law, private landowners are encouraged to engage in 
prescribed fire activity to reduce hazardous fuel conditions. When 
performing this work, if the fire were to spread, actions would be 
measured by a gross negligence standard.
    In other situations, fire fighters from adjacent districts are 
urged to be good neighbors and help suppress fires with the assurance 
that they will be held harmless.
    Similarly here, utilities cannot risk partnering with the Forest 
Service on off-ROW fuel reduction activities without accompanying 
protections. We are not asking for a complete waiver of liability but 
the standard should be one of gross negligence.
    Xcel Energy would welcome a dialog with Committee staff and the 
agencies in the coming weeks to see how best this partnership could be 
expanded and the necessary protections could be incorporated.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Benevento.
    The Chair now recognizes Mr. Gregory Smith, Director of 
Lands at the U.S. Forest Service in Washington, DC.

    STATEMENT OF GREGORY SMITH, DIRECTOR, LANDS AND REALTY 
  MANAGEMENT, FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
                         WASHINGTON, DC

    Mr. Smith. Thank you, Mr. Chairman, and thank you for 
giving us the opportunity to present the Department of 
Agriculture's views on the discussion draft to enhance electric 
reliability by facilitating vegetation among the Federal land 
managers.
    The Department recognizes the reliability of delivery of 
electricity is essential to the Nation's welfare and economy 
and that fire service disruptions that result from contact 
between vegetation and power lines threaten safety, resources, 
and places a burden on rate payers. The Forest Service works 
collaboratively with holders of electric transmission and 
distribution line authorizations to develop appropriate 
vegetation management plans that increase reliability, minimize 
the risk of forest fires, and directs compliance with the 
applicable forest, Federal, state, and local requirements. 
These plans should include procedures that allow for routine 
emergency removal of vegetation.
    The Agency's 2013 vegetation management guide specifies for 
field staff the procedures and practices that should be 
included in operation and maintenance for power lines. This 
plan states that where vegetation conditions inside or outside 
the authorized right-of-way pose an imminent threat to the 
power line facilities, utility companies may remove those 
threats immediately without prior approval from the Forest 
Service.
    This guide provides for all other vegetation management 
activities to be planned and coordinated with the Agency to 
ensure utilities and their contractors are aware of any 
existing conditions that could present a threat to them or the 
public and to ensure that requisite environmental review, if 
there is any, is conducted.
    Members of my staff communicate regularly with utilities to 
address specific issues and to discuss programmatic effects to 
improve Agency responsiveness. At many locations, utility 
managers and Forest Service field personnel are successful in 
timely management of vegetation in corridors. In other places, 
we have had some problems. Response times can take longer than 
we would like as program staff managers have approximately 
70,000 special use permits and 6,000 new special use permits 
each year.
    Regarding the discussion draft, the Forest Service is eager 
to work with the subcommittee on this legislation. However, 
some of the draft provisions we think are unnecessary and are 
duplicative of existing law and regulation in the Forest 
Service's policy.
    In addition, the Agency cannot support some provisions as 
currently written.
    Number one, unduly restrictive requirements that restrict 
the Secretary of Agriculture from enforcing National Forest 
System regulations.
    Two, impose regulations and reviews that approve deadlines 
which would be unreasonable for many staffs to meet under the 
current resource constraints and would impose a liability if 
these conditions are not met.
    Three, eliminate the FLPMA strict liability for electric 
transmission and distribution facilities which are a high-risk 
use and occupancy of Federal land.
    And four, allow utilities without involvement of the Agency 
to cut trees on National Forest System lands that do not pose 
an imminent threat to the electric transmission or distribution 
facilities.
    To enhance cooperation and efficiency in maintenance of 
electric transmission and distribution line right-of-ways, the 
Agency encourages utilities to meet with field personnel, 
explain the required actions, and work collaboratively with 
others to develop plans for getting the work done. We look 
forward to assisting the subcommittee with the legislation and 
future discussions on the Agency efforts to improve 
reliability.
    Mr. Chairman and members of the subcommittee, this 
concludes my statement and I would be happy to answer any 
questions.

    [The prepared statement of Mr. Smith follows:]

    Prepared Statement of Gregory Smith, Director, Lands and Realty 
       Management, Forest Service, U.S. Department of Agriculture

    Chairman and members of the subcommittee, thank you for the 
opportunity to present the U.S. Department of Agriculture's views 
regarding the discussion draft to enhance the reliability of the 
Nation's electricity grid by facilitating vegetation management on 
Federal lands.

                          the discussion draft

    The discussion draft would add a new section 512 to the Federal 
Land Policy and Management Act of 1976. Section 512(a) would require 
Federal land managers to provide direction to ensure that all existing 
and future rights-of-way for electric transmission and distribution 
facilities on Federal lands include provisions for utility vegetation 
management, facility inspection, and operation and maintenance 
activities that:

    <bullet> Are developed in consultation with the holders of the 
            right-of-way;

    <bullet> Enable the holder to operate and maintain these facilities 
            in good working order and comply with Federal, state and 
            local electric system reliability and fire safety 
            requirements;

    <bullet> Minimize the need for case-by-case or annual approvals for 
            routine and emergency vegetation management activities; and

    <bullet> When review is required, provide for expedited review and 
            approval.

    Section 512(b)(2)(A)(i) and 512(b)(4) would require Federal land 
managers to review and approve vegetation management, facility 
inspection, and operation and maintenance plans within 30 days, and 
would require that the Secretary use the agency's categorical exclusion 
process under National Environmental Policy Act of 1969 to exclude from 
documentation in an environmental assessment or environmental impact 
statement any vegetation management plans developed for existing 
rights-of-way. Under Section 512(b)(1), plans would not have to cover 
the entire right-of-way.

    Section 512(b)(5) would provide that once the vegetation management 
plan is approved, the holders of the right-of-way would have to provide 
the Federal land manager with only notification of anticipated 
activities in the coming year, a description of those activities, and 
certification that the activities are in accordance with the plan. If 
vegetation on or adjacent to a right-of-way does not meet clearance 
requirements under Federal, state , or local standards, the affected 
Federal land manager would have only 3 business days, even in non-
emergency situations, to approve the holder's request to conduct 
vegetation management activities to meet those requirements. If 
approval is not given within that time frame, the holder may take 
action after providing notice to the Federal land manager.

    Under section 512(f) holders of a right-of-way would be shielded 
from liability if the affected Federal land manager failed to authorize 
vegetation management activities that are required to comply with 
Federal, state, or local system reliability and fire safety 
requirements. Section 512(g) would encourage development of training 
for employees and section 512(h) would mandate implementing 
regulations.

    The Department recognizes that reliable delivery of electricity is 
essential to the America's welfare and economy, and that fire and 
service disruptions that result from contact between vegetation and 
power lines threaten public safety and resources and place a potential 
burden on rate payers. The Forest Service is eager to work with the 
subcommittee on this legislation. However, some of the discussion 
draft's provisions are unnecessary to the extent they duplicate 
existing requirements in Forest Service policies and special use 
authorizations. In addition, the Agency cannot support provisions that, 
as currently written, would:

    <bullet> Unduly restrict the Secretary's ability to exercise 
            appropriate management authority over the National Forest 
            System;

    <bullet> Impose review and approval deadlines, which would be 
            unreasonable for many field staffs to meet under current 
            resource constraints, and which would expose the Agency to 
            liability if unmet; and

    <bullet> Eliminates strict liability for electric transmission and 
            distribution facilities, which are a high-risk use and 
            occupancy of Federal land, and eliminates liability for 
            negligence.

    The Forest Service also cannot support provisions that would allow 
utilities without Agency involvement to cut trees on National Forest 
System lands that do not pose an imminent threat to electric 
transmission and distribution facilities, particularly when those trees 
are outside of authorized rights-of-way.

                          the current program

    The Forest Service administers approximately 70,000 special use 
authorizations, including 2,700 authorizations for power lines, 
covering about 18,000 linear miles. Those facilities serve as critical 
links in the national electricity grid. Helping to ensure structures 
and adjacent natural resources are maintained in a way that protects 
them from damage or destruction is an important and challenging part of 
Agency operations. Program staff manages approximately 70,000 special 
use authorizations and processes nearly 6,000 proposals for new uses 
annually. This makes it imperative for utilities planning maintenance 
work to contact the responsible field office as far in advance as 
possible. The Agency's response time varies depending on the 
capabilities of each field office, the level of work planned, and 
conditions in the planned area.

    The Forest Service works collaboratively with holders of electric 
transmission and distribution line rights-of-way to develop appropriate 
vegetation management plans that allow holders to provide for 
reliability, minimize the risk of forest fires, and comply with 
applicable Federal, state, and local requirements. These plans should 
include procedures that allow for emergency removal of trees that pose 
an imminent threat without prior approval from the Forest Service. The 
Agency's 2013 vegetation management guide specifies for field staffs 
the procedures and practices that should be included in operation and 
maintenance plans for power lines. This guide states that where 
vegetation conditions inside or outside the authorized right-of-way 
pose an imminent threat to power line facilities, utility companies may 
remove those threats immediately without prior approval from the Forest 
Service. The guide provides for all other vegetation management 
activities to be planned and coordinated with the Agency to ensure 
utilities and their contractors are aware of any existing conditions 
that could present a threat to them or to the public and to ensure that 
the requisite environmental review, if any is conducted.

    The Agency is well aware of the frustrations experienced by some 
utilities due to delayed responses for maintenance approvals and 
inconsistency across field offices, and is taking steps to address 
these concerns. Members of my staff communicate regularly with 
utilities to address specific issues and to discuss programmatic 
efforts to improve agency responsiveness. Staff members attended the 
Western Utilities Group meeting this month in Washington, DC and 
discussed the Agency's efforts to improve procedures for transmission 
line maintenance, including enhancing vegetation management directives 
and permit clauses, completing review of the Federal vegetation 
management MOU with the Edison Electric Institute (EEI), developing 
web-based special uses training, conducting reviews of special uses 
business practices, and holding an Agency executive energy forum, 
scheduled for June of this year.

    To enhance cooperation and efficiency in maintenance of electric 
transmission and distribution line rights-of-way, the Agency encourages 
utilities to meet with field personnel, explain required actions, and 
work collaboratively to develop plans for getting work done. The 
Department recently embarked on an initiative to look at reducing fire 
risk beyond the right-of-way limits. The Secretary of Agriculture 
convened the Western Utilities Summit in 2013 with power company 
executives to explore partnership opportunities for increasing the pace 
and scale of forest restoration and fire mitigation work. Pilot 
projects where utilities are contributing to reducing their risk and 
the fire risk within fire-derived ecosystems have begun. As an example, 
Xcel Energy, in partnership with national forests of the Colorado Front 
Range, has provided funding for treating the live and dead fuel 
component of stands outside of the corridor. A 5-year operating plan 
was completed and signed in June 2014 for a 5-year investment of $1.2 
million. The 5-year plan outlines reducing hazardous fuels on 3,350 
acres and addresses 326 of 400 high priority structures across three 
national forests. In addition, a fire science analysis by USFS and Xcel 
scientists has been published. The document discusses the joint science 
to guide vegetation clearance standards and vegetation treatments for 
prevention of damage to lines and other infrastructure.

    We look forward to assisting the subcommittee with the legislation 
and future discussions on Agency efforts to improve reliability. 
Chairman and members of the subcommittee, this concludes my statement 
and I would be happy to answer any questions you may have.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Smith.
    The Chair now recognizes Mrs. Karen Mouritsen, Deputy 
Assistant Director for Energy, Minerals, and Realty Management 
at the Bureau of Land Management in Washington, DC.

  STATEMENT OF KAREN E. MOURITSEN, DEPUTY ASSISTANT DIRECTOR, 
    ENERGY, MINERALS AND REALTY MANAGEMENT, BUREAU OF LAND 
  MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, DC

    Ms. Mouritsen. Thank you, Chairman Fleming, Ranking Member 
Huffman, and members of the subcommittee. Thank you for the 
opportunity to provide the Department of the Interior's views 
on H.R. 2358, the Electricity Reliability and Forest Protection 
Act. This bill amends the Federal Land Policy and Management 
Act, or FLPMA, by adding new provisions regarding vegetation 
management and electric transmission rights-of-way.
    The Department supports the bill's vision of early and 
frequent communication with the holders of these rights-of-way 
to plan for and address their needs, including the development 
of plans for management of vegetation. The Department opposes, 
however, the bill's automatic authorizations and extremely 
constrained review time frames for these plans.
    The BLM works closely with thousands of utility 
organizations to manage rights-of-way for the transmission and 
distribution of electrical power. We always appreciate the 
opportunity to work collaboratively with our stakeholders and 
partners and in managing rights-of-way, we believe that 
advanced planning is critical to ensuring that both the BLM and 
the utilities can respond to vegetation management requirements 
in a timely and effective manner.
    The BLM also recognizes that the approval of thoughtfully 
cited rights-of-way is crucial to the economic vitality of our 
Nation. Currently, the BLM administers over 15,000 
authorizations for electric transmission and distribution 
facilities.
    To support the efforts needed to improve transmission 
reliability and increase capacity in this country, the 
President's Fiscal Year 2016 budget for the BLM includes a $5 
million increase to allow the BLM to continue to work to 
identify and designate energy corridors in the areas of low 
conflict which should expedite future permitting processes for 
new lines.
    As currently written, the bill would apply to thousands of 
existing rights-of-way, some of which were approved decades ago 
and will soon expire. Before the enactment of FLPMA in 1976, 
the BLM issued a significant number of rights-of-way under 
various authorities, often for terms of 40 to 50 years, and 
these rights-of-way typically do not contain vegetation 
management or reliability standards which are standard 
provisions of the post-FLPMA rights-of-way.
    In addition, the BLM is aware that the Federal Energy 
Regulatory Commission recently issued an order designed to 
improve the reliability of electric transmission systems by 
preventing or minimizing outages from vegetation located on or 
near the transmission rights-of-way.
    BLM supports these standards and appreciates and supports 
the work of the utility companies to comply with these 
standards. BLM currently provides opportunities for right-of-
way grant holders to establish plans of operation that address 
vegetation management and other operating procedures. Routine 
vegetation management activities generally do not require 
separate BLM approvals, nor do true emergency actions. Most of 
the right-of-way grants issued in the past 20 years include 
such plans of operations.
    The Department believes that the bill's mandatory approval 
time frame of 30 days for new vegetation management plans is 
not realistic given the potential scope of such plans and the 
number of rights-of-way they could cover. Additionally, the 
bill does not provide any flexibility for the BLM to work with 
the utility to address inadequate or incomplete plans, nor 
would it allow time for the BLM and the utility to coordinate 
with local communities.
    Likewise, the Department believes that the time frame of 3 
business days to respond to requests for treatments is 
problematic as it would preclude the BLM's ability to work with 
utility companies to modify requests when and where 
appropriate, to ensure treatments satisfy the BLM resource 
management responsibilities, and also address utility needs in 
a manner that is safe given current on-the-ground conditions.
    The BLM values our partnerships with the holders of the 
electrical transmission and distribution rights-of-way, and we 
will continue to work toward further collaboration to meet our 
shared goals. We appreciate the subcommittee's attention to 
this issue, and thank you for the opportunity to be here.
    [The prepared statement of Ms. Mouritsen follows:]
 Prepared Statement of Karen E. Mouritsen, Deputy Assistant Director, 
  Energy, Minerals, and Realty Management, Bureau of Land Management, 
                       Department of the Interior
                              introduction
    Thank you for the opportunity to provide the Department of the 
Interior's views on H.R. 2358, the Electricity Reliability and Forest 
Protection Act, which amends the Federal Land Policy and Management Act 
(FLPMA) by adding new provisions regarding vegetation management, 
facility inspection and operation, and maintenance of electric 
transmission and distribution facility rights-of-way (ROWs). The Bureau 
of Land Management (BLM) works closely with thousands of public, 
private, and cooperative utility organizations to manage ROWs for the 
transmission and distribution of electrical power. The Department 
values these partnerships and the vital services that electric 
utilities provide for local communities and the Nation. We also value 
our shared relationships and responsibilities with our Federal utility 
partners, the Federal Power Marketing Administrations.
    The Department notes that the draft legislation was provided to us 
about 1 week before the hearing date and the bill was introduced late 
last week, less than a week prior to the hearing, leaving little time 
for analysis of the introduced bill's provisions. We will provide 
preliminary views on the bill in this statement, but the Department 
reserves the right to submit additional comments about the introduced 
bill to assist in developing the Administration's position if 
necessary. We also would be glad to engage in further discussion with 
the sponsor and the subcommittee on the bill. As it is currently 
written, however, the Department opposes the bill's automatic 
authorizations and extremely constrained review time frames.
    The BLM manages roughly 245 million acres of Federal land 
consistent with its mission to sustain the health, diversity, and 
productivity of America's public lands for the use and enjoyment of 
present and future generations. As part of that mission, the BLM has 
issued thousands of miles of ROWs for electricity transmission and 
distribution under FLPMA and other applicable authorities. The BLM 
recognizes that the approval of ROWs that are thoughtfully sited are 
crucial to the economic vitality of our Nation. Congress reinforced 
this in Section 103 of FLPMA which defines ROWs as one of the principal 
or major uses of the public lands. Currently, the BLM administers over 
15,000 authorizations for electric transmission and distribution 
facilities, ranging from low-voltage 12 kilovolt (kV) lines to high-
voltage 500 kV lines and related infrastructure.
    The BLM is committed to ensuring public safety and reliability with 
respect to the electricity transmission ROWs it administers. The BLM 
takes its responsibility for the administration of these ROWs 
seriously, values the opportunity to work with utility companies to 
serve our communities, and works simultaneously to meet its obligations 
for the management and protection of natural and cultural resources on 
the public lands as well as protection of public health and safety. To 
support the necessary upgrades needed to improve reliability and 
increase capacity, the President's Fiscal Year 2016 budget includes a 
program increase of $5.0 million in the Cadastral, Lands and Realty 
Management program to enhance the BLM's ability to identify and 
designate energy corridors in low conflict areas and to site high-
voltage transmission lines, substations, and related infrastructure in 
an environmentally sensitive manner.
    Before the enactment of FLPMA in 1976, the BLM issued a significant 
number of ROWs under various authorities. These earlier ROWs were often 
issued for terms of 40 to 50 years and typically do not contain 
vegetation management and reliability standards. Because FLPMA repealed 
the prior authorities, the BLM can only address reauthorization under 
Title V of FLPMA. Reauthorization generally requires analysis under the 
National Environmental Policy Act (NEPA) and other laws that were not 
in existence when the original authorizations were granted. This 
process represents a substantial workload for the BLM, but ultimately 
leads to the issuance of ROWs with clear and consistent terms and 
conditions that address, among other topics, maintenance issues such as 
vegetation management.
    In addition, the BLM is aware that the Federal Energy Regulatory 
Commission (FERC) issued an order in September 2013 approving updated 
transmission vegetation management standards. Those standards, which 
became enforceable for transmission owners in July 2014, were 
implemented to improve the reliability of electric transmission systems 
by preventing outages from vegetation located on transmission ROWs and 
minimizing outages from vegetation located adjacent to ROWs. The 
standards also address maintaining clearances between transmission 
lines and vegetation on and along transmission ROWs and reporting 
vegetation-related outages to the Regional Reliability Organizations 
(RRO) and the North American Electric Reliability Council (NERC). The 
BLM appreciates FERC's issuance of these standards and their emphasis 
on improving transmission safety and reliability. The BLM also 
appreciates the work of utilities which have increasingly sought to 
conduct vegetation management treatments within and adjacent to ROWs on 
BLM-administered public lands to comply with these new standards. In 
some situations, the current ROW authorizations may not be consistent 
with the updated NERC standards; in those situations the BLM works with 
the individual ROW holders to address their concerns.
                          cooperative approach
    Under the Energy Policy Act of 2005, which directed Federal land 
managing agencies to expedite approvals necessary to allow the owners 
or operators of electric transmission or distribution facilities to 
comply with standards for vegetation management that imminently 
endanger the reliability or safety of the facilities, the BLM and other 
Federal agencies work to increase their collaboration with utilities. 
The BLM is a party, along with other Departmental agencies, the 
Environmental Protection Agency, the Forest Service, and the Edison 
Electric Institute (an association of shareholder-owned electric 
companies), to an interagency Memorandum of Understanding (MOU) that 
formalizes a cooperative approach to streamline the management of 
vegetation near utility facilities. The MOU facilitates a variety of 
mutually accepted goals, including maintaining reliable electric 
service, improving safety, reducing the likelihood of wildfires, 
reducing soil erosion, reducing environmental risk, streamlining 
administrative processes, and incorporating integrated vegetation 
management (IVM) where appropriate. Under the MOU, the parties agreed 
to a set of IVM practices intended to protect human health and the 
environment and also agreed to the principles of cooperation, timely 
communication, and consistent management. The current MOU has expired, 
but its operational principles are still in use and the parties are 
currently working toward approving a new MOU.
    The BLM works closely with utilities that hold many BLM ROWs, such 
as Arizona Public Service, NV Energy, and Idaho Power, to establish 
master agreements that provide standard terms and conditions that can 
be applied to multiple ROW grants. These agreements enhance consistency 
across BLM offices and create greater predictability and efficiency for 
the utility operators as they conduct business with the BLM. In Idaho, 
this cooperation has led to increased efficiency approving operations 
and maintenance proposals for transmission ROWs and associated 
infrastructure. Another way the BLM collaborates with utilities is 
through offering training to BLM employees with the assistance of 
industry experts.
    The BLM appreciates any opportunity to work collaboratively with 
all our stakeholders and partners, including utility companies, and 
recognizes the value of advance planning for future maintenance needs 
when possible. Ongoing communication and coordination are also critical 
to ensuring that both the BLM and the utility can respond to vegetation 
management requirements in a timely manner.
                 vegetation management in rights-of-way
    The growth of vegetation within utility ROWs can, in some cases, 
pose risks to the infrastructure needed to provide a continuous supply 
of electrical power. Trees can fall or otherwise make contact with 
overhead power lines, resulting in power outages or fires, which pose 
threats to public safety, private property, and natural resources. 
Ground fires can create heat damage to facilities or burn wooden power 
poles. Thus, to provide a dependable supply of electricity, utilities 
must manage vegetation near their transmission and distribution lines 
to prevent blackouts and wildfires; a goal shared by the BLM. Plans of 
development incorporate various information elements, including health 
and safety standards and maintenance actions needed to ensure that the 
ROW grant holders and the BLM know what to expect when vegetation 
management is undertaken. Advance planning is critical for the BLM to 
expedite any approvals necessary to allow ROW grant holders to conduct 
vegetation management activities.
    When issuing or renewing a ROW grant to a utility company, the BLM 
completes an analysis required by NEPA and other statutes, including 
consideration of activities necessary for the ongoing maintenance and 
operation of those lines. The analysis may also consider other 
resources or activities appropriate for the location or management 
needs of a particular ROW. The BLM includes standard terms and 
conditions for the management of vegetation, agreed upon by both the 
agency and the ROW grant holder, when issuing the ROW grant. Under the 
terms and conditions typically included in ROW grants, a utility 
company may conduct minor trimming, pruning, and weed management to 
maintain the ROW or facility after simply notifying the BLM. Further 
BLM authorization is typically not required.
    In some cases, BLM approval is needed prior to ground disturbance 
and the cutting and removal of any timber or vegetative resources that 
have market value. The utility company can often obtain BLM approval 
for the removal of hazard trees through a streamlined process (e.g., 
utilizing categorical exclusions). For an emergency situation causing 
an imminent hazard, no BLM pre-approval would be necessary. For other 
actions within the ROW, but beyond its scope, BLM approval is needed. 
These actions may require additional environmental analysis. In 
general, the degree of analysis required for a specific vegetation 
removal action depends on the resources affected, the scope of the 
action to be taken, and the environmental analysis that had been 
previously completed. To facilitate efficiency, the BLM encourages 
early and ongoing communication with our utility partners regarding 
vegetation management needs and concerns.
                       hazardous fuels management
    The National Cohesive Wildland Fire Management Strategy represents 
a collaborative approach to restoring and maintaining resilient 
landscapes, creating fire-adapted communities, and managing wildfire 
response in a complex environment. The BLM is committed to protecting 
people, property, and resources from wildland fire, and uses a 
proactive approach to treat hazardous fuels. The BLM regularly 
completes hazardous fuels reduction treatments, including thinning, 
salvage, and prescribed burns.
    The BLM routinely works with partner organizations to engage in 
land and watershed restoration, community preparedness, and hazardous 
fuels reduction activities. Departmental agencies employ an integrated 
approach to wildland fire management, including the prioritization of 
hazardous fuels treatments to mitigate the potential risk of wildfires. 
Utilities that hold ROW grants are an important partner in this 
approach. Hazardous fuels reduction projects that protect vital 
infrastructure can also help the Department of the Interior to protect 
rural communities from wildland fire, and the presence of important 
infrastructure is one of the factors that the Department considers in 
prioritizing hazardous fuels projects.
    Electrical transmission ROWs can often provide significant 
potential for the establishment of fuel breaks and for linking 
hazardous fuels reduction projects ultimately creating a stronger 
network of fuel breaks, which contributes to landscapes that are more 
resilient to fire. Such projects help the BLM to protect communities 
and natural resources from wildland fire, and the utilities to ensure 
protection of their electricity transmission and distribution 
infrastructure. The Cohesive Strategy highlights the importance of 
working with communities to identify community values and 
infrastructure, including electricity transmission facilities, to be 
prioritized for proactive mitigation of wildfire risk.
      h.r. 2358, electricity reliability and forest protection act
    H.R. 2358 amends FLPMA by adding new provisions regarding 
vegetation management, facility inspection and operation, and 
maintenance of electric transmission and distribution facility ROWs. 
Specifically, it requires the Secretary of the Interior and the 
Secretary of Agriculture to provide ROW grant holders the option of 
developing plans to conduct such activities to comply with applicable 
system reliability and fire safety requirements. The bill specifies 
that the Secretaries would not have the authority to modify the 
reliability and safety requirements, and that the Secretaries must 
jointly develop a process to review and approve within 30 days the 
vegetation management plans and any amendments to them. The review and 
approval process would have to include a way for the agencies to notify 
ROW grant holders of any changed conditions that warrant modifications 
to the plans, provide grant holders with the opportunity to submit 
proposed plan amendments to address the changed conditions, and allow 
the grant holders to continue implementing the portions of approved 
plans that do not adversely affect the conditions causing the need for 
modifications.
    The bill mandates that the Secretaries apply the categorical 
exclusion process under NEPA to the vegetation management plans. The 
plans, which could cover one or more ROWs, would become part of the 
authorizations governing the covered ROWs and danger trees adjacent to 
the ROWs. Danger trees are defined as any trees inside the ROWs or 
trees outside the ROWs that would come within 10 feet of power lines or 
related structures if they fell. Once a plan is approved, the ROW grant 
holder would notify the granting agency of vegetation management 
activities it anticipates undertaking in the coming year, describe the 
activities, and certify that the activities conform to the plan.
    In cases where vegetation within ROWs or danger trees adjacent to 
ROWs have contacted or are in imminent danger of contacting electric 
transmission lines, H.R. 2358 provides authority for grant holders to 
prune or remove the vegetation as long as they notify the appropriate 
agency within 24 hours afterwards. Similarly, in cases that are not 
deemed as hazardous but where vegetation within or adjacent to ROWs 
does not meet NERC, state, or local standards, grant holders may 
conduct vegetation management activities to meet those clearance 
requirements if the agency fails to allow such activities within 3 
business days after receiving a request for authorization to undertake 
them. The bill requires the Secretaries to annually report on requests 
and actions under both of these situations. If either Secretary fails 
to allow ROW grant holders to conduct vegetation management in order to 
comply with Federal, state, or local reliability and fire safety 
requirements, the bill relieves the ROW grant holders of liability if 
the vegetation causes or contributes to wildfire damage, loss, or 
injury.
    Finally, H.R. 2358 requires the Secretaries to take additional 
steps regarding implementation. The bill encourages both Secretaries to 
develop training programs for relevant employees regarding electric 
system reliability standards and fire safety requirements. It also 
directs the Secretaries to propose implementing regulations within 1 
year of enactment and finalize them within 2 years.
                                analysis
    As currently written, H.R. 2358 would apply to thousands of 
existing ROWs, some of which were approved decades ago and will soon 
expire. The Department supports early and frequent communication with 
the holders of these ROWs to plan for and address their needs, 
including the incorporation of plans for maintenance and vegetation 
management. The Department opposes, however, the bills's automatic 
authorizations and extremely constrained review time frames. The BLM 
already provides opportunities for ROW grant holders to establish plans 
of operation that address vegetation management, and routine activities 
generally do not require separate BLM approvals. Most of the ROW grants 
issued within the past 20 years include such plans of operation, which 
address vegetation management. The bill's mandatory approval time frame 
of 30 days for vegetation management plans is not realistic given the 
potential scope of such plans and the number of ROWs they could cover. 
Additionally, H.R. 2358 does not provide any flexibility for the 
agencies to address inadequate or incomplete plans, including such 
matters as cultural and natural resource needs, emergency or routine 
maintenance procedures, or procedures for treatment of vegetation 
adjacent to the ROW. The Department also notes that such a time frame 
would not allow time for important coordination with local communities.
    Likewise, the Department believes that the time frame of 3 business 
days to respond to requests for treatments is problematic. The 
mandatory approval required under this provision would preclude the 
BLM's ability to work with utility companies to modify requests when 
and where appropriate to ensure treatments satisfy BLM resource 
management responsibilities and address utility needs in a manner that 
is safe given current conditions. Furthermore, the Department believes 
the language in the bill should be clarified in several other ways. For 
example, the term ``adjacent'' is not adequately defined.
    The Department defers to the Department of Justice regarding the 
waiver of liability, but notes that this provision may conflict with 
the Department's existing regulatory authority regarding strict 
liability, which is a standard term and condition of numerous existing 
ROW grants. The Department also notes that FLPMA and existing 
regulations provide the BLM with significant latitude to administer 
ROWs, and new regulations may not be necessary.
                               conclusion
    The BLM values our partnerships with the holders of electrical 
transmission and distribution ROWs, and we will continue to work toward 
further collaboration to accomplish our shared goals. We believe that 
early and coordinated planning and communication are essential to 
ensure that vegetation management can occur expeditiously and that ROW 
holders can comply with standards for vegetation management. We 
appreciate the opportunity to continue to work closely with ROW 
holders, and the committee's attention to this issue. Thank you for the 
opportunity to be here, and I would be glad to answer any questions.

                                 ______
                                 

    Dr. Fleming. Thank you, Ms. Mouritsen.
    The Chair now recognizes Mr. Mark Hayden, the General 
Manager of the Missoula Electric Cooperative in Missoula, 
Montana.

 STATEMENT OF MARK HAYDEN, GENERAL MANAGER, MISSOULA ELECTRIC 
                 COOPERATIVE, MISSOULA, MONTANA

    Mr. Hayden. Good afternoon, Chairman Fleming and members of 
the subcommittee, and thank Congressman Zinke for his earlier 
introduction. Thank you also for the opportunity to testify in 
support of H.R. 2358, the Electricity Reliability and Forest 
Protection Act of 2015. MEC is a member of the Montana Electric 
Cooperatives Association and of the Northwest Public Power 
Association and my comments here today are representative of 
their views as well.
    By way of background, MEC serves the electric distribution 
needs of approximately 15,000 meters in western Montana and 
eastern Idaho. The nearly 2,000 miles of distribution line that 
we maintain deliver energy to some of the most wild and scenic 
locations in the country, over 280 miles of which cross Federal 
land. At MEC we are consistently working to improve safety and 
system reliability, and vegetation management is a critical 
component of our program. We strive continually to keep our 
rights-of-way clear and the adjacent property free from danger 
trees.
    We also work diligently to maintain good relations and open 
communications with the various Forest Service offices and 
ranger districts with which we interact. In many cases those 
offices and the people that staff them live locally, and have a 
vested interest in the health and welfare of the forest, and it 
shows.
    But this positive situation is not found on all of our 
rights-of-way managed by the Forest Service. In some cases it 
can take months and even a year or more to obtain approval on 
major operations and maintenance activities. These 
inconsistencies and delays adversely impact our ability to make 
good, timely decisions locally and place our co-op at 
unnecessary risk.
    In fact, the risk of forest fires as a result of hazard 
trees is all too real for the West. For example, I know of one 
member-owned electric cooperative in New Mexico that today 
faces the very real prospect of bankruptcy as a result of a 
massive 152,000 acre fire. This fire was caused by just one 
Aspen tree that fell onto the co-op's Forest Service right-of-
way. The Forest Service held this co-op responsible for the 
cost of fighting the fire, sending the co-op a bill totaling 
more than $38.2 million. The co-op has $20 million in liability 
coverage.
    Mr. Chairman, I would ask permission to have two documents 
related to this fire entered into the hearing record.
    Dr. Fleming. Hearing no objection, so ordered.
    Mr. Hayden. Our service area in Montana, like so many parts 
of the West, has been adversely affected by the mountain pine 
beetle infestation and the dead and dying trees left in their 
wake. One of the areas hardest hit is in the Swan Valley, north 
of Seeley Lake, Montana. In fact, during 2012, 94 percent of 
the outage minutes at this delivery point were caused by tree 
failure outside of the right-of-way and contact with overhead 
lines. Obviously, one of the most effective ways to improve 
service reliability and mitigate fire risk is to bury that 
line.
    However, converting overhead distribution lines to 
underground is an expensive prospect, and especially for a 
small co-op like MEC. So this cannot be standard practice.
    After considerable discussion, an application was submitted 
to the appropriate Forest Service district to bury just over 6 
miles of distribution line. However, as the months progressed, 
our hopes dimmed. Eventually we made an appeal for help from 
then-Congressman Steve Daines, who brought our situation to the 
attention of this subcommittee.
    As of last week, our request was still not approved, and I 
called the local Forest Service office to express my 
frustration. These local officials indicated that the hold up 
in processing our request was getting a bill to us for cost 
recovery; and if I wanted to see things change, I should take 
up my issue with Congress. Two days later, on Saturday, May 16, 
we received unofficial notice via email that our project was 
approved and we were authorized to begin construction.
    The system is broken. H.R. 2358, as introduced by 
Congressman Zinke and Congressman Schrader, is a meaningful 
step toward fixing the problem. The legislation addresses some 
of my concerns and the concerns of others in Montana about 
inconsistent Federal agency actions, lengthy delays in response 
to applications by electric utilities, and accountability for 
delays relating to eliminating hazard trees and other 
vegetation and utility rights-of-way.
    This is a tremendous first step. I hope that one day the 
same level of consistency, flexibility, and accountability can 
be incorporated into the process to amend existing special use 
permits on Forest Service rights-of-way, especially when system 
reliability and fire protection are driving factors.
    Thank you again for the honor of testifying before this 
subcommittee and I will be pleased to answer any questions. 
Thank you.

    [The prepared statement of Mr. Hayden follows:]
    Prepared Statement of Mark C. Hayden, General Manager, Missoula 
                          Electric Cooperative

    Good Afternoon Chairman Fleming and members of the subcommittee, my 
name is Mark Hayden, and I am the General Manager of Missoula Electric 
Cooperative (MEC) in Missoula, Montana.
    Thank you for the opportunity to testify in support of H.R. 2358, 
the Electricity Reliability and Forest Protection Act of 2015. Missoula 
Electric Cooperative is a member of the Montana Electric Cooperatives' 
Association, and the Northwest Public Power Association and my comments 
are representative of their positions as well.
    By way of background, MEC serves the electric distribution needs to 
approximately 15,000 meters in western Montana and eastern Idaho. The 
nearly 2,000 miles of distribution line that we maintain deliver energy 
to some of the most wild and scenic locations in the country--286 miles 
of which cross Federal land.
    At MEC we are constantly working to improve system reliability, and 
vegetation management is a critical component of our program, both on 
and off Federal land. We strive constantly to keep our rights-of-way 
clear and the adjacent property free from danger trees. The cornerstone 
of this effort is our System Maintenance and Reliability Taskforce or 
SMART. The SMART program is an integrated maintenance program focused 
on proactive vegetation management, system-wide installation of 
wildlife protection wherever possible, and routine equipment inspection 
and maintenance.
    We also work diligently to maintain good relations and open 
communications with the various Forest Service Offices and Ranger 
Districts with which we interact. In many cases, those district offices 
and the people that staff them live locally and have a vested interest 
in the health and welfare of the forest, and it shows.
    A great example of this level of cooperation occurs regularly 
during the clearing of danger trees outside of our rights-of-way during 
routine Operations and Maintenance activities. Representatives from MEC 
and local Forest Service Officials communicate periodically and 
expectations are understood. As a result, managers and crews can 
adequately plan for the time and financial resources necessary to 
complete a project. Another positive example occurred during the summer 
of 2014 when a power line river crossing was toppled during spring 
runoff. Once emergency power restoration was complete, we requested 
burial of the line and approval was granted within hours, as it should 
be in the case of Emergency Operations and Maintenance activities.
    But this positive situation is not found on all our rights-of-way 
managed by the Forest Service.
    In some cases, it can take months or a year or more to obtain 
approval on Major Operation and Maintenance activities. Such approvals 
are necessary to assuring electricity service is not jeopardized as a 
result of work needed on rights-of-way. It is this inconsistency and 
the unnecessary financial risk placed on my cooperative and other 
cooperatives that causes me and other co-op managers in the state of 
Montana significant concern.
    In fact, the risk of fires as a result of hazardous trees is all 
too real across the West. For example, I know of one member-owned 
electric cooperative in New Mexico that today faces the very real 
prospect of bankruptcy as a result of a massive 152,000-acre fire. This 
fire was caused by just one aspen tree that fell onto the power line in 
the co-op's Forest Service right-of-way. The Forest Service held this 
co-op responsible for the costs of fighting this fire, sending the co-
op a bill totaling more than $38.2 million. The co-op has $20 million 
in liability insurance coverage.
    Mr. Chairman, I would like to ask permission to have two government 
documents related to this fire entered into the hearing record.
    For my co-op in Montana, our service area, like so many parts of 
the West, has been adversely affected by the Mountain Pine Beetle 
infestation and the dead and dying trees left in its wake. One of the 
areas hardest hit is in the Swan Valley north of Seeley Lake, Montana. 
In fact, during 2012 the substation serving this remote country 
recorded the worst performance of all our delivery points and, 
according to our records, 94 percent of our outage minutes were caused 
by tree failure from outside of our rights-of-way and contact with 
overhead lines. In 2013, that total was 86 percent when excluding 
severe storms.
    One complicating factor for our lines on Federal land in this area 
is that the Forest Service has required that many of them be 
constructed out of view using vegetative screening, and thus far off 
the road when originally installed. This means lack of visibility, 
inaccessibility, and heavily forested rights-of-way are the norm.
    Obviously, one of the most effective ways to improve service 
reliability and mitigate fire risk is to bury the power line. As you 
can imagine, each instance of tree/power line contact can pose 
significant risk of wildfire ignition under the right environmental 
conditions. However, converting overhead distribution lines to 
underground is an expensive proposition, especially for a small 
cooperative like MEC, so this cannot be standard practice. But after 
considerable internal discussions regarding our situation in the Swan 
Valley, the decision was made to be proactive by requesting permission 
to bury approximately 6.1 miles of overhead line on Forest Service 
land.
    In addition to reliability, a major contributing factor in our 
decision to bury this line was a 2011 Montana Supreme Court decision 
relating to fire damages. In that ruling the court indicated that a 
utility could be held liable for restoring unimproved property to its 
pre-fire condition, including the replacement of mature trees. This 
ruling had the potential to bankrupt any utility and solidified our 
decision to move forward.
    On December 2, 2013, an application was submitted to the Forest 
Service district office having jurisdiction over the proposed project, 
and, just 1 month after submittal, we were notified that approval of 
our request was expected by June of 2014.
    However, as the months progressed our hopes dimmed. Eventually, we 
made an appeal for help from then-Congressman Steve Daines, who brought 
our situation to the attention of this subcommittee last year. In 
preparation for my testimony here today, I spoke with the local Forest 
Service office regarding my frustration. These local officials 
indicated that the hold-up in processing our request was getting us a 
bill for cost recovery, and if I wanted to see things change I should 
take up my issue with Congress! This comment was made even though they 
were unaware of my pending testimony on this very issue.
    Two days later, on Saturday, May 16, at 4:06 p.m. we received 
unofficial notice via email that all associated field work has been 
completed on our project, that our co-op has paid the Forest Service 
for all associated costs, and that we were authorized to begin 
construction.
    The system is broken, and H.R. 2358 as introduced by Congressman 
Zinke and Congressman Schrader is a meaningful step toward fixing the 
problem. The legislation addresses some of my concerns and the concerns 
of others in Montana about inconsistent Federal agency actions, lengthy 
delays in response to applications by electric utilities, and 
accountability for delays related to eliminating problems with 
hazardous trees and other vegetation on utility rights-of-way.
    I hope that one day the same level of consistency, flexibility, and 
accountability can be incorporated into our process to amend existing 
special use permits on existing rights-of-way, especially when system 
reliability and fire prevention are driving factors.

    Thank you again for the honor of testifying before this 
subcommittee and I will be pleased to answer any questions.
The following documents were submitted for the record by Mr. Hayden and 
are being retained in the Committee's official files:

  --Confidential Report by Unified Investigations & Sciences, Inc. 
            prepared for Jemez Mountain Electric Cooperative, Espanola, 
            New Mexico regarding a fire that occurred on June 26, 2011
  --Letter to Jemez Mountain Electric Cooperative on January 31, 2013 
            from the U.S. Forest Service, Albuquerque, New Mexico 
            regarding a notice of indebtedness for a fire that occurred 
            on June 26, 2011

                                 ______
                                 

    Dr. Fleming. OK. Thank you, and thank you for your 
testimony.
    At this point we will begin our questions for witnesses. To 
allow our Members to participate and to ensure we can hear from 
all of our witnesses today, Members are limited to 5 minutes 
for their questions.
    However, if Members have additional questions, we can 
always have additional rounds. I now yield myself the first 5 
minutes.
    This question is to Mr. Markham, Mr. Benevento, and Mr. 
Hayden. We hear today, and we often hear this from the other 
side of the aisle, sort of this reflexive response that if 
there is a problem with the Federal Government, it is because 
we are not funding the government enough. Of course, we all 
know that in the last 6 to 7 years the budget deficit has 
accelerated to the fastest pace in the history of this Nation. 
So it is not like we have a lot of extra money in order to 
throw at problems.
    I, on the other hand, believe that the problem is more 
often poor management and poor accountability. I think we see 
in the VA a recent example of exactly what I am talking about. 
We passed a huge bill increasing the funding after all of the 
scandals at the VA, only to find out virtually nothing has been 
fixed, and virtually nobody has been fired. So I just simply 
don't believe that throwing money at the problem is ever, or 
rarely if ever, the solution.
    So my question is this: the Federal agencies before us 
today discussed their view that inadequate funding is part of 
the problem. Yet the Forest Service discussed its funding 
agreement with Xcel. Aren't there also things called cost 
recovery agreements where the utilities pay up front, or 
reimburse the agencies for clearing trees?
    Mr. Hayden. Chairman Fleming, I will address that question. 
With our application for burial of that line, the response that 
we received was that getting us the bill for cost recovery was 
the hold up. Now, we are paying those costs, and my argument to 
them was get us the bill. We will gladly, not gladly, but we 
will pay those costs that we owe you to get the job done. That 
is all we were asking for.
    There is inconsistency between that application and the one 
prior to that that was processed in a relatively efficient 
fashion. So this notion of cost recovery, yes, it is there. We 
will pay that bill. The problem was getting us the bill, and 
that just didn't make sense to me.
    Dr. Fleming. Well, again, I think that makes my point. That 
underlines and underscores my point that the Federal 
bureaucracy seems to feel that it is being underfunded, but it 
doesn't have any problem allowing its inefficiency to run costs 
up for the private enterprise, or private businesses, or 
private utilities in this case. So, better management and 
faster response would have saved you a lot of time, effort, 
headaches, and money, would it not?
    Mr. Hayden. That is exactly correct and so that was after 
about 9 or 10 months, and much of the field work on our project 
had actually been completed before the cost recovery agreement 
was even sent to us, and I guess what troubled me even more was 
the fact that upon getting that cost recovery agreement and 
paying the bill, my call last week indicated that they hadn't 
received the money or it had gotten parked on somebody's desk, 
apparently, because they had the check for 40 days. Somebody 
looked for it, found it, and gave us a call and said, you are 
good to go. So----
    Dr. Fleming. Well, perhaps we should fund the Agency more 
money so that they have more desks for the check to get stuck 
on.
    Mr. Hayden. Right.
    Dr. Fleming. How about the other two members?
    Mr. Markham. I would like to respond to that, Chairman. 
There are two parts of that. First one, the cost recovery 
agreement, and you heard my testimony where I talked about an 
archeological study that we are paying for that we expect could 
be around $87,000. We have to cut a check for that and it has 
to be done before any approvals for our project are done.
    The other thing, years ago with the BLM, we never had to 
pay for renewing our permits. Just in the last 2 years, we 
renewed 31 permits with the BLM and we have cut a check for 
$40,000 for that. So we are paying a lot of money to have our 
infrastructure on the property.
    The other thing, going into your question about, is funding 
part of the problem, I guess my biggest concern about that is 
that we are talking about infrastructure that has been in place 
for 40, 50, 60 years. We just want to take care of it.
    If it was a new line going in, we can understand the hoops 
that you have to jump through for that, but this is existing, 
existing facilities that need maintaining. They are getting 
outdated, and so from that standpoint, that shouldn't cost 
anything just to let us maintain our infrastructure.
    Dr. Fleming. A great point. Mr. Benevento, do you have 
anything to add?
    Mr. Benevento. I would echo their statements and just say 
we have a cost recovery agreement with our Federal partners and 
often there are issues about whether paying up front or paying 
after the work is done, and checking to make sure that the work 
is done correctly, which causes us some time and difficulty, 
and I think causes them some issues as well. So----
    Dr. Fleming. Thank you. My time is up. I yield to the 
Ranking Member for 5 minutes.
    Mr. Huffman. Thank you, Mr. Chairman. I just want to 
respectfully push back a little bit on this idea that because 
we have had a deficit over the past decade, there must be 
plenty of money to go around the Federal Government, so that 
can't be part of the discussion or part of the solution. These 
agencies we are talking about now were not part of what landed 
us in a $17 trillion national debt, or the deficits we have 
been dealing with. I think if you asked them about their non-
fire-related budgets over the last 7 years, decade or so, you 
would find that it has been pretty tight.
    What did land us in this problem, of course, is that we 
launched a couple of wars, and for the first time in our 
country's history, the good folks here in Congress decided 
instead of raising taxes to pay for the wars that they 
authorized, we would for the first time cut taxes while going 
to war, turning any semblance of fiscal conservatism or fiscal 
responsibility on its head. That is why we are here today, not 
because these agencies have had plenty or too much money to 
spend.
    But I do want to ask you, Mr. Smith, with respect to your 
agency, what are the impacts of fire borrowing on your 
resources and how has that impacted your ability to put people 
in the field to process right-of-way maintenance requests?
    Mr. Smith. Congressman, I think that you hit a sensitive 
point there. Certainly, we want to appreciate all of the money 
that Congress appropriates to us, but, certainly, we have to 
make decisions in terms of when we are fighting fires it 
certainly affects resource budgets. If we are called upon to 
transfer funds, certainly, that is going to affect projects 
that we might have been doing, whether it is a fuels treatment 
or something else. So it has a tremendous effect on us when we 
have to pull those resources from stuff that we have already 
planned. And that certainly affects staffing capacity as well 
as having enough authority to get those cost recoveries that we 
have been talking about here later.
    Mr. Huffman. I would ask you also, Mr. Smith, about the 
danger tree provision in this bill. Do you have concerns that 
that definition of danger tree, the new definition as proposed, 
would be broad and could lead to unnecessary removal of 
valuable vegetation and potentially have unintended 
consequences?
    Mr. Smith. Yes, we think that if a tree is imminent, or 
what we call an imminent danger, we allow them to cut that down 
even without prior approval and then they can come back and 
tell us later that that has been done. The danger tree 
provision--we want to make sure that the utilities are talking 
to us so that we can make a determination as to whether there 
are some problems that we are having with that tree, whether 
there are some public safety concerns, or whether there is some 
type of sensitivity in that area.
    We would like a little more flexibility so that we can 
manage that. If it is certainly a danger tree, we will 
certainly give them the opportunity to make those corrections 
and remove those trees.
    Mr. Huffman. Thank you. I know you have expressed some 
concern as well about the liability shift as proposed in this 
legislation. But I believe I heard Mr. Benevento say something 
that caught my attention. I found it potentially very 
significant. I think I heard you say that at the very least you 
should have a gross negligence standard for these projects that 
you might do on your own dime in coordination with the Forest 
Service.
    Did I hear you correctly that you could accept a gross 
negligence standard as opposed to a straight shift of 
liability?
    Mr. Benevento. For off-right-of-way work is what I was 
discussing. So when we are doing--the off-right-of-way work is 
a responsibility of the Federal land managers to clear and 
manage, because for a variety of reasons that is not occurring.
    So we are willing to volunteer--it is like a Good Samaritan 
Law, Senator Udall had a Good Samaritan Law several years ago. 
This is sort of similar to that in the sense that we would be 
willing to do it. We would be willing to pay for it. We would 
be willing to take direction and get approval from the Federal 
land managers, but the liability standard, in order to incent 
us to do that would have to be a gross negligence standard.
    Mr. Huffman. Understand. Thank you. I found that to be 
significant and very productive and maybe something folks can 
work on as this goes forward. But I just want to ask my last 
question of Ms. Mouritsen. You spoke to the lack of flexibility 
in your agency's ability to collaborate and work with utilities 
once they submit a plan to you under this bill. Could you 
elaborate a little bit on that? Do you feel like some 
improvements are needed in that regard?
    Ms. Mouritsen. Yes, we agree with the intent of this bill 
to develop these plans. We were just afraid when we read this, 
where it said they would turn the plan in and we would have to 
approve it in 30 days----
    Mr. Huffman. Right.
    Mr. Mouritsen [continuing]. That there wouldn't be time. We 
might have some really good comments that we would like to 
discuss with the company and we----
    Mr. Huffman. You might be able to make the plan better.
    Ms. Mouritsen. Make the plan better, and that is what we 
would be afraid wouldn't be able to happen.
    Mr. Huffman. In my 5 seconds left--from the two government 
officials here, we currently handle rights-of-way and special 
use permitting in that manner, which does create 
inconsistencies. Will both of you agree that if we can get this 
right, some programmatic approaches to managing these issues 
might be beneficial for everyone?
    Mr. Smith. We would agree with that.
    Ms. Mouritsen. Sure, yes.
    Mr. Huffman. All right, thank you, and thank you Mr. Chair.
    Dr. Fleming. Mr. McClintock is recognized.
    Mr. McClintock. Thank you, Mr. Chairman. It has been 
observed that one of the many differences between the private 
and public sectors is that the private sector attracts capital 
by becoming more efficient and more innovative. The more 
productive they become, the more capital they attract.
    The public sector works exactly the opposite. They attract 
capital by being less efficient, less innovative, and then 
coming here and demanding more money to cure these 
inefficiencies.
    My observation has been, particularly with respect to the 
National Forest Service, that as the staff and spending keep 
going up, and up, and up, the performance and efficiency keeps 
going down, and down, and down. It seems that the more 
bureaucrats we add, the more cumbersome the bureaucracy 
becomes. I would like to ask Mr. Markham, Mr. Benevento, and 
Mr. Hayden for their observations on this phenomenon.
    Mr. Markham. Well, I will go ahead and jump in first. I 
think what is important for us, or what has happened with us 
is, again, our infrastructure is aging. Infrastructure across 
the country is aging, and so----
    Mr. McClintock. Are you finding the bureaucracy becoming 
more responsive or less responsive to the need for removal of 
these trees?
    Mr. Markham. It is definitely, the bureaucracy has gotten 
worse here.
    Mr. McClintock. Mr. Benevento, better or worse?
    Mr. Benevento. I hesitate to over-generalize. I would go 
with about the same.
    Mr. McClintock. Mr. Hayden?
    Mr. Hayden. I would qualify it by saying I am concerned 
that there isn't turnover at so many levels at our local 
staffing positions that I am worried about the lack of 
consistency as we move forward. And one other----
    Mr. McClintock. Do you think that the bureaucracy behavior 
would change if we went for a pay-for-performance system----
    Mr. Hayden. I can tell you this----
    Mr. McClintock [continuing]. Or whether they are paid based 
upon the applications they process?
    Mr. Hayden. Production might go up not----
    Mr. McClintock. Mr. Benevento?
    Mr. Benevento. Well, that is the way we do it at Xcel, and 
it works for me.
    Mr. McClintock. Mr. Markham?
    Mr. Markham. Absolutely.
    Mr. McClintock. We were just told that, hey, no big deal, 
you can get rid of the danger trees. Just come back and tell us 
later. Is that so, Mr. Markham?
    Mr. Markham. I am sorry, I didn't catch the question.
    Mr. McClintock. The Forest Service just testified, that you 
can get rid of the danger trees. Just come back and tell us 
later. Is that the way it works?
    Mr. Markham. No.
    Mr. McClintock. Mr. Benevento?
    Mr. Benevento. I think I am going to show you why there is 
inconsistency. We actually have an arrangement where we can get 
rid of our danger trees and then notify them afterwards, but 
apparently that is not the case nationally.
    Mr. McClintock. OK. How about Mr. Hayden?
    Mr. Hayden. Yes.
    Mr. McClintock. During the last 30 years, we have seen an 
80 percent decline in the timber harvests from the National 
Forest Service lands. Those are public assets that the National 
Forest Service, by the way, under the Department of Agriculture 
is responsible for managing for the good of the American 
people, as well as the good of our national forests.
    As we have seen that decline in timber harvest, we have 
seen a concomitant increase in acreage destroyed by 
catastrophic fire. I wonder if we returned to sustainable 
yields that we had 30 years ago, where we were removing excess 
timber from the public lands before it burned in catastrophic 
fires, and we are generating revenues from those sales, I would 
like to know from the National Forest Service, how much money 
would that mean to the Service to manage our public lands 
better?
    Mr. Smith. Congressman, I am not sure I have a definite 
answer for that, but we would be willing to look at it.
    Mr. McClintock. Well, you are responsible for the 
management of these resources. I would hope that you would know 
how much those resources were worth. I mean, we were harvesting 
at sustainable levels 30 years ago. We had a steady stream of 
revenue as a result of those activities. The Forest Service was 
a net income generator for the U.S. Treasury, and we had much 
healthier forests as a result.
    Mr. Smith. I agree with that. I will certainly look into 
that and get back to you. I don't have those figures.
    Mr. McClintock. I would like to ask one final question of 
the utilities representatives. You work with the public land; 
on the Federal Lands Subcommittee, we have received reams of 
testimony over the deterioration of the health of our national 
forests over the past 30 years, not coincidentally the same 30 
years that the environmental left has dominated our policy, our 
laws, and our litigation on this subject.
    Would you say our national lands are healthier or less 
healthier than they were 30 years ago? One word answer from 
each of the utilities.
    Mr. Markham. I will answer less.
    Mr. McClintock. Mr. Benevento?
    Mr. Benevento. I don't know what shape they were in 30 
years ago, but we know that in Colorado, we have a lot of 
issues with respect to the health of our forest.
    Mr. McClintock. Mr. Hayden?
    Mr. Hayden. Less.
    Mr. McClintock. Thank you.
    Dr. Fleming. The gentleman yields. The Chair recognizes 
Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. Mr. Hayden, Mr. 
Markham, and Mr. Benevento, a question for you. Can you 
describe the differences between the Federal Government and 
state or local governments with regard to how well they handle 
vegetation management?
    Mr. Markham. Well, I believe we have a much quicker 
response from the local level or the state level on something 
like this than working with the Federal level.
    Mrs. Lummis. And why is that, do you think?
    Mr. Markham. Well, it is my opinion that we can get in 
contact and have better communication, and if something is not 
going good with my people that handle this, they could come to 
me and I can make some contacts with the people I know at the 
local or the state level.
    Mrs. Lummis. Mr. Benevento, what has your experience been?
    Mr. Benevento. I think the local level is where we get the 
best response.
    Mrs. Lummis. Let me ask Mr. Benevento while I have you. Are 
there instances where Federal land management agency partners 
with a utility to assist in vegetation management off of 
rights-of-way on Federal land?
    Mr. Benevento. We do. We have been talking with our Federal 
partners about doing that and one of the arrangements we have 
discussed is paying them, again, to do the work, or what we 
prefer is have them do the work and then we reimburse them for 
it, which is a partial solution to it.
    But it is more efficient, we think, if we do it. We have 
crews out there. We have crews working. We can do the work more 
efficiently. And there is also a question of payment. One of 
the issues we have had is they want to be paid up front, and we 
would prefer to pay them after the work is done and then 
reimburse them.
    So again, we would prefer to do the work and we are willing 
to accept some level of liability for it in order to try and 
get it done more effectively.
    Mrs. Lummis. Would you choose to pay them to do it because 
of the liability standard? Is that the main driver?
    Mr. Benevento. At this point, yes. At this point what we 
believe is strict liability if we go off the right-of-way and 
it is a little unclear--the law is a little unclear in this 
area, but we are unwilling to go off the right-of-way based 
upon what we believe is a strict liability standard if we do 
so. If that were to change, we would be willing to do the work 
at our cost.
    Mrs. Lummis. So is it fair for me to assume that the 
liability standard may in some instances at least, deter 
utilities from assisting Federal land management agencies in 
clearing fire hazards?
    Mr. Benevento. Off of the right-of-way, it certainly acts 
as a disincentive for us to do it, yes.
    Mrs. Lummis. Again, for Mr. Markham, Mr. Hayden, and Mr. 
Benevento: under current law, even if the Forest Service or the 
BLM negligently failed to do their job by not allowing 
utilities to eliminate hazard trees and something goes wrong, 
do you or your customers have to pick up the tab for it if it 
is actually the Federal agency that is negligent?
    Mr. Markham. Any costs like that come right back into our 
rate base and, ultimately, they are paid for those costs by our 
members.
    Mrs. Lummis. So you do assume those costs, even if the 
Federal agency is negligent.
    Mr. Markham. Right now, and I cited the example with 
Midstate Electric Cooperative. It requested removal of a danger 
tree that was near the right-of-way, and the tree caused a 
forest fire and they were denied a request from the Forest 
Service. They ended up having to pay several hundreds of 
thousands of dollars.
    Mrs. Lummis. Mr. Hayden, can you jump in on this? Do you 
have an opinion about this line of questioning?
    Mr. Hayden. I don't know that I can, I assume that we would 
be held liable. In Montana, we are especially concerned. The 
Montana State Supreme Court has issued a ruling in 2011 that 
stated that utilities would have to replace the forest as it 
was, so put mature trees to replace the forest. So obviously, 
we are very, very concerned about that. It has had the effect 
of possibly bankrupting one of our co-ops in the state of 
Montana.
    In the legislative session that just ended in the state of 
Montana, we were successful in getting language in a bill that 
said that the value could not exceed the pre-fire fair market 
value of unimproved property. So the question of liability is 
huge to us in the state of Montana, especially given the fact 
that they were requiring the replacement of mature trees, not 
small trees.
    Mrs. Lummis. Well, Mr. Chairman, I will yield back. If we 
have another line of questioning, I do want to ask about the 
fairness of this and what might be a better system. Thank you, 
Mr. Chairman.
    Dr. Fleming. Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman. And thanks to 
everybody on the panel for being in this discussion. It seems 
like we are legislating common sense. I would think that 
everybody here would be in agreement that no one wants to see 
fires, no one wants to see power interruptions and we have a 
common goal. And I hope that is a goal of everybody that is 
shared.
    For Mr. Smith and Ms. Mouritsen, excuse me if I butcher 
your name, both of you testified that each of your agencies 
have field guides or handbooks for government employees to 
follow when it comes to the electricity rights-of-way on 
Federal land. But just in the last couple of discussions, we 
have heard that there seems to be a little inconsistency 
between existing agencies.
    So will you tell me about these documents? Are they 
discretionary? Are they hard and fast? Could you talk, both of 
you, a little bit about that.
    Mr. Smith. Congressman, with the desk guide for the Forest 
Service, we recently have that out, that is the guideline 
telling the field how to deal with utilities, how to deal with 
right-of-ways. It is simply a guide right now. It will 
eventually be put into an interim directive for permanent 
manual direction, but right now it is a guide.
    But we certainly work with the field. And we think 
everybody has a good idea what this is about. My staff has 
certainly been working with the staff around the regions, in 
the forests, to help them understand what that guide is about 
and what that is. We have done extensive training working with 
the utility companies as well as the Forest Service itself.
    Mr. Newhouse. So there is some discretion allowed within 
that?
    Mr. Smith. It is a guide right now, yes.
    Mr. Newhouse. Thank you.
    Ms. Mouritsen. We have a similar situation. We have 
policies and guidance, and they contain procedures for working 
with the right-of-way holders. But there is some room for 
discretion and exactly how to craft, say, the vegetation 
management plan because conditions are different in each area. 
So it depends a little bit on the local situation.
    We also do a lot of training. We partner with the industry 
in training and with the Forest Service and try to train our 
people and bring as much consistency as we can.
    Mr. Newhouse. Thank you. So, Mr. Markham, Hayden, and 
Benevento----
    Mr. Benevento. Benevento.
    Mr. Newhouse. Benevento, excuse me. The Administration is 
insinuating that the policies in these field guides--I forget 
the term you called them, Mr. Smith--are in place, both 
agencies have guidelines available. So, my take is that the 
position is that this bill is a duplication, and is not 
necessary. Could you describe or help me understand what 
positive things that this bill would provide you and what kinds 
of consistency that could be brought about by passing this 
legislation?
    Mr. Benevento. I think you have used the word that is most 
appropriate which is consistency. You know, we were just 
talking here about the ability to take down a danger tree that 
could potentially come into contact or arc with a power line. 
And we can do that right now. We can immediately go in and get 
that tree down. Then we just have to inform the Forest Service 
afterwards. I don't think that is true of all of us on the 
panel.
    So I think one of the things it would do is establish 
policies and procedures that could be undertaken and that would 
make them sort of common-sense policies and procedures that are 
nationally applicable.
    Mr. Hayden. I would just add to that that this turnover 
that I talk about at the local level at Forest Service offices, 
the training requirement within the bill is very important 
because that will allow for consistency across all offices and 
not just certain areas.
    Mr. Newhouse. Good point. Thank you.
    Mr. Markham. Yes, that was my similar answer. The training 
is what is really critical there, so that we have the 
consistency. There are a lot of different interpretations of 
the standards.
    Mr. Newhouse. Thank you. With that, Mr. Chairman, I will 
yield back my time.
    Dr. Fleming. The gentleman yields back. I have a couple 
more questions. Would you like to do another round? It may only 
be you and I.
    Mr. Huffman. As you wish.
    Dr. Fleming. OK. Sure. Again, I recognize myself for 5 
minutes. Mr. Markham, Benevento, and Hayden, the Forest Service 
and BLM say that parts of this bill are redundant with actions 
already going on at the local Forest Service and BLM levels. 
Then why is this bill necessary?
    Mr. Benevento. I think to bring about the consistency in 
the management of the forest and to take some of the good 
practices, as I have talked about, our ability to deal with, 
for example, danger trees. I think that the potential use of 
integrative vegetation management also provides some benefit 
that could be legislated that could be productive.
    Mr. Markham. Well, the way I would answer this is, again, 
consistency, we have to have consistency. I talked about the 
differing interpretations and application of the standards; 
this legislation gives us consistency. It gives us 
accountability also, and that is pretty significant.
    The other thing is that we deal with different areas across 
the state. They deal with different standards. In one area they 
can do things one way, and then you come down into our area and 
it is done completely different. So that is why I support and 
believe this legislation is really needed.
    Mr. Hayden. In my opening comments, I mentioned that I 
think this is a great first step. We have been looking to 
modify our special use permit to bury some line. I should have 
brought this up from the earlier question about this transfer 
of liability. If the Forest Service hasn't acted upon our 
request, I know of nothing that eliminates liability from us. 
So we have submitted an application for a modification to our 
special use permit.
    I think this is one of those things that if there are 
inefficiencies, if there is lack of responsiveness, it is not 
meshing with what they are saying is happening within their 
respective departments.
    Dr. Fleming. OK. I yield my time to the Ranking Member.
    Mr. Huffman. Thanks, Mr. Chairman. For my final thoughts or 
questions, I guess my takeaway here is that I definitely am 
hearing the elements of a consensus. They are all here in this 
conversation. Some of them are in this bill, and there are some 
pieces in this bill that I think need more work and are perhaps 
needlessly controversial and not necessarily even essential to 
getting us to this possible solution. The idea of the 
programmatic approach to what is currently being done on a 
case-by-case, patchwork basis makes a lot of sense. That ought 
to be something we can work on together.
    So my hope is that we can go forward from here, take these 
elements of consensus and build something that could be a 
strong bipartisan product and not let the wedge issues and, 
just frankly, some of the ideological crossfire that you, 
unfortunately, were subjected to get in our way.
    We are going to have to address the fact that at some point 
when we direct the government to do things, even coming up with 
a programmatic new solution, it costs money. In fact, 
programmatic approaches cost more money up front than the case-
by-case type of approach. So we have to start giving these 
public agencies the funding they need to do the many things we 
ask of them, instead of letting wildfires consume not only 
their trees but their budgets. My hope is we can continue to 
draw the connection between the fire borrowing solution and all 
these other things that we would like to see happening on the 
ground.
    Thank you for the hearing, Mr. Chairman. And thanks to the 
witnesses.
    Dr. Fleming. I would like to thank our witnesses for their 
valuable testimony. Members of the subcommittee may have 
additional questions for our witnesses. We would ask you to 
respond to these in writing. The hearing record will be open 
for 10 business days to receive these responses.
    If there is no further business, without objection, the 
subcommittee stands adjourned.

    [Whereupon, at 3:39 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
